<html>
<title> - THE FOUNDATIONS FOR A NEW WATER RESOURCES DEVELOPMENT ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
       THE FOUNDATIONS FOR A NEW WATER RESOURCES DEVELOPMENT ACT

=======================================================================

                                (113-10)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
       committee.action?chamber=house&committee=transportation 



                  U.S. GOVERNMENT PRINTING OFFICE
80-437                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY

                                  (ii)




            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          ANN KIRKPATRICK, Arizona
ERIC A. ``RICK'' CRAWFORD,           LOIS FRANKEL, Florida
Arkansas,                            ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
RICHARD L. HANNA, New York           EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
REID J. RIBBLE, Wisconsin            MICHAEL H. MICHAUD, Maine
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                JANICE HAHN, California
TOM RICE, South Carolina             SEAN PATRICK MALONEY, New York
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
MARK MEADOWS, North Carolina           (Ex Officio)
RODNEY DAVIS, Illinois
VACANCY
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Harry Simmons, Mayor, Caswell Beach, North Carolina, and 
  President, American Shore and Beach Preservation Association...     7
Warren D. Williams, General Manager/Chief Engineer, Riverside 
  County Flood Control and Water Conservation District, and 
  President, National Association of Flood and Stormwater 
  Management Agencies............................................     7
Peter Stephaich, Chairman, Campbell Transportation Company, and 
  Secretary, Waterways Council, Inc..............................     7
Adolph N. Ojard, Executive Director, Duluth Seaway Port 
  Authority, and U.S. Delegation Chairman, American Association 
  of Port Authorities............................................     7
Christopher J. Gobler, Ph.D., School of Marine and Atmospheric 
  Sciences, Stony Brook University, and Director of the 
  Shinnecock Bay Restoration Program.............................     7
Amy W. Larson, Esq., President and CEO, National Waterways 
  Conference, Inc................................................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Harry Simmons...............................................    42
Warren D. Williams...............................................    46
Peter Stephaich..................................................    55
Adolph N. Ojard..................................................    68
Christopher J. Gobler, Ph.D......................................    73
Amy W. Larson, Esq...............................................    76

                       SUBMISSIONS FOR THE RECORD

Great Lakes Maritime Task Force, written testimony...............    93
National Wildlife Federation, written testimony of Melissa Samet, 
  Senior Water Resources Counsel.................................    98



[GRAPHIC] [TIFF OMITTED] 80437.001

[GRAPHIC] [TIFF OMITTED] 80437.002

[GRAPHIC] [TIFF OMITTED] 80437.003

[GRAPHIC] [TIFF OMITTED] 80437.004



       THE FOUNDATIONS FOR A NEW WATER RESOURCES DEVELOPMENT ACT

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. At this time the Water Resources and Environment 
Subcommittee will come to order.
    I would like to welcome everybody to our first subcommittee 
hearing of this new Congress. Today we have esteemed panelists, 
and I am going to turn it over in a second to my ranking member 
to introduce one of the panelists.
    We will introduce them and then go back to opening 
statements, to just recognize they are here.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    And I appreciate the opportunity to introduce a member of 
the panel who is a long-time colleague. We had the pleasure of 
working together at Southampton College, and now, Professor 
Chris Gobler is at the Stony Brook University campus at 
Southampton, where he is part of the university's School of 
Marine and Atmospheric Sciences. He is a recognized national 
and international expert in the field of marine and fresh water 
ecology, and over the last 20 years he has published over 90 
peer-reviewed articles and multiple professional journals.
    He is intimately involved in the Shinnecock Bay Restoration 
Project, which is a project that has enormous regional 
significance, and he is recognized as a national expert on how 
coastal physical and biological systems respond to storm and 
development impacts.
    So, Chris, it is a pleasure to welcome you to Washington, 
and I should tell the whole room here that if there is a better 
teacher alive, I would like to meet him or her. Chris, welcome 
to the committee and thank you.
    Mr. Gibbs. Thank you, Representative.
    Also on our panel today we have the Honorable Harry 
Simmons. He is the mayor of Caswell Beach, North Carolina. He 
is also president of the American Shore and Beach Preservation 
Association.
    Also Mr. Warren Williams, who is the general manager of 
Riverside County Flood Control and Water Conservation District. 
He is also the president of the National Association of Flood 
and Stormwater Management Agencies.
    We also have Mr. Stephaich. He is chairman of the Campbell 
Transportation Company and secretary of the Waterways Council.
    Also Mr. Adolph Ojard. He is the executive director of the 
Duluth Seaway Port Authority. He is also the U.S. delegation 
chairman of the American Association of Port Authorities.
    And also Ms. Amy Larson, who is president of the National 
Waterways Conference.
    And at this time I am going to turn it over. I am really 
pleased that our chairman of the full Committee on 
Transportation and Infrastructure, Chairman Shuster, is here. 
He has taken a real interest in the importance of WRDA and the 
waterways and maritime transportation system and the challenges 
we have. So I am going to turn it over to Mr. Shuster for an 
opening statement.
    Mr. Shuster. Thank you, Mr. Chairman, and thanks for all 
your hard work over the past couple of months holding a number 
of listening sessions, and we had a roundtable with Ranking 
Member Bishop and Ranking Member Rahall.
    I think it is extremely important that we are listening to 
the stakeholders out there, and in our last bipartisan 
roundtable, there was equal surprise and concern by both sides 
of the aisle as to the excessive costs and time delays that 
plague many of the core projects.
    In fact, at one point I could not tell the difference of 
who was a Republican and who was a Democrat in the room because 
we were all, as I said, frustrated by what we have heard and 
what we are hearing. So it is important that we move a WRDA 
bill forward.
    We are going to move it forward in a fashion where we have 
listened to folks. We reach across the aisle and we want to do 
this in a bipartisan way because I think, as I said, in that 
last roundtable we had there is concern on both sides of the 
aisle to making sure we streamline the process to move these 
projects forward. Excessive studies and time delays just need 
to stop.
    WRDA does matter, and again, it is a bill that when I say 
``WRDA'' I always need to follow with Water Resources and 
Development Act. Too many of my colleagues were not here; in 
fact, about 46 percent of the Members of the House today were 
not here in 2007. So they are not familiar with the WRDA bill, 
and if you do not come from a port or harbor town or a river 
town, or have a place that has significant problems with 
flooding, you do not understand necessarily the importance of a 
WRDA bill.
    So as we move forward with this bill in a bipartisan way 
with our goal of trying to solve these problems, I know that 
the Senate has moved it out of their committee, and it appears 
that it may be on the Senate floor here in the coming weeks. We 
need to pay attention to what has happened in the Senate. I 
think the Senate bill has some very good features to it. There 
are some things that are not included, but again, as we start 
to craft our bill we want to make sure that we are making the 
right decisions and making sure the investments are made.
    One of the numbers that I have come across in these 
listening sessions, I was talking to the soybean growers, and 
the United States is one of the leading producers of soybeans 
in the world. One of our number one competitors is Brazil, and 
we have a competitive advantage over the Brazilians because it 
takes us, the United States, because of our inland waterway 
system, our transportation system, $85 to move a ton of soybean 
from Davenport, Iowa, to Shanghai, China. It takes the 
Brazilians to move that same ton same distance $141. And we see 
today the Brazilians are investing $26 billion in their water 
infrastructure, as well as the Chinese are down there 
investing.
    So we need to pay close attention to that because as each 
year goes on, their number is going to come down and ours is 
going to go up if we do not streamline this process, have the 
reforms necessary to get these projects done quicker because 
time is money, and also be looking at how do we make sure that 
we are funding these projects at a level they need to be funded 
at.
    Again, I go back to the founding of this country. 
Transportation, commerce has always been at the core of the 
Federal Government, what our role is in the Constitution going 
back to why the Federalists Papers failed. It was a 
transportation system, a water transportation system, an inland 
water transportation system. When the Virginians and the folks 
from Maryland could not come together on a treaty to navigate 
the Potomac River, they came away with the failed negotiations 
realizing we had to strengthen our Constitution and make sure 
that it was clear that the Federal Government had a role, and 
it does have a role.
    As we see, the Panama Canal as it is moving forward, we 
only have seven ports in this country that can take those ships 
today. We are not going to have every port dredged to a depth 
to be able to take those ships, but we assuredly need more 
ports in this country to move forward.
    I think a lot of us have heard the situation down in Miami 
where the Port of Miami has the money. They are ready to move 
forward. The Federal Government will not step up and say they 
are going to reimburse and say they are going to take over the 
maintenance and operation cost going forward.
    You know, these are problems we have out there we need to 
look closely at, and again, it is one of my top priorities. It 
is one of the committee's top priorities to make sure we have 
passed a WRDA bill that improves the operation of the Corps, 
and as I have said and I have been saying, is making sure we 
are making those investments in a timely manner.
    So, again, I thank the chairman for holding this hearing. I 
thank the ranking member, Mr. Bishop, for his work on this 
issue, too, and I yield back.
    Mr. Gibbs. Mr. Bishop, do you have any opening statement?
    Mr. Bishop. Thank you, Mr. Chairman.
    I thank you for holding today's hearing, and I welcome you 
back to your role as chairman of the Subcommittee on Water 
Resources and the Environment, and I look forward to working 
with you throughout the year on issues of importance to the 
Nation.
    Chief among these is the issue of jobs and how we can 
harness the power of this committee to help create hard working 
jobs for American families. Like I can imagine you were, Mr. 
Chairman, I was disappointed in the job creation numbers that 
came out earlier this month. While the national unemployment 
rate ticked down to 7.6 percent, there is still about 11.7 
million unemployed Americans.
    When you examine these numbers more deeply, you can see 
that some areas of the economy are taking longer to recover 
than others. For example, the March unemployment rate in 
construction was 14.7 percent, the highest unemployment rate in 
any sector examined in the national labor market. To be blunt, 
there are currently 1.2 million unemployed construction workers 
in the Nation that need our help.
    Mr. Chairman, I am frequently asked whether the Federal 
Government can do anything to help reduce the rate of 
unemployment in this Nation. In my view, and I think it is one 
that is backed up by lessons learned from the Recovery Act of 
2009, Federal investments in our Nation's infrastructure 
systems, our highways, bridges, airports, sewers, and other 
water related infrastructure do, in fact, create jobs.
    That is why the work of this committee is so important, 
because it primes the pump for additional investments in our 
Nation's infrastructure that will benefit the country in so 
many ways.
    First, they create well-paying jobs for American families 
that cannot be outsourced overseas.
    Second, these investments benefit our overall national 
economy, leading to better transit corridors, reduced 
congestion, competitive markets, better air and water quality, 
and increased international competitiveness and productivity.
    Third, these investments improve regional and local quality 
of life issues, making our communities more livable, more 
accessible and fostering regional and local economies.
    Finally, these investments provide a resounding return on 
what is a relatively modest Federal investment, not only in 
terms of increased tax revenues, but lower Federal expenditures 
for unemployment insurance and other Federal support programs.
    As others have noted, it has been over 6 years since the 
Congress last approved a Water Resources Development Act, and 
in those intervening years our Nation's needs have matured and 
our awareness of the fragile nature of our infrastructure has 
increased, and yet our national, regional, and local fiscal 
situations have grown more complicated.
    As of today's hearing, the committee has received 23 
completed reports of the Chief of Engineers for projects all 
across the country for navigation, flood control, and 
environmental restoration. The combined total cost of these 
Chief's Reports is approximately $15.5 billion and addresses 
issues ranging from providing enhanced flood protection for 
cities from Sacramento, California, to Fargo, North Dakota, to 
Topeka, Kansas, to providing expanded navigational capabilities 
to the Sabine-Neches Waterway along the Texas-Louisiana border, 
as well as Jacksonville Harbor, Florida, to authorizing the 
next stage of restoration for the Florida Everglades or the 
coastal areas of Mississippi and Louisiana that were so heavily 
impacted by Hurricanes Katrina and Rita.
    In other words, the scope of the work that is awaiting 
action from this committee is comprehensive, is national, and 
when carried out will provide significant benefits to the lives 
and livelihoods of communities all across the Nation.
    During the debate on a new WRDA, I expect to have some 
lively discussions on how to proceed. For example, we need to 
have a serious discussion on how to address the pending 
construction work that this committee authorized the Corps to 
study and this Congress funded at taxpayer expense under the 
existing earmark moratorium.
    We also need to have a serious discussion on how we can 
address our local needs when faced with an ever constrained 
Federal budget process and one that will become even more 
constrained should the House continue to follow the 10-year cut 
to the Corps budget called for in the Majority's budget 
proposal.
    We need to have a serious discussion about why projects 
studied by the Corps take years to complete and whether the 
actions developed by the Corps in response to this committee's 
direction in WRDA 2007 are making significant improvements to 
this process.
    And finally, we need to have a serious discussion on the 
future of the Corps and how we expect the agency to address 
many of the water related challenges facing our Nation today. 
This is no easy task, but it is one that is going to require 
significant efforts from both sides of the aisle to address 
fundamental challenges within a complicated system.
    Mr. Chairman, again, I am glad we are starting this process 
today, and I look forward to working with you on a bipartisan 
basis to meet the needs of our communities and our Nation.
    I yield back. Thank you.
    Mr. Gibbs. Thank you, Mr. Bishop.
    Today our hearing is on the foundations for a new Water 
Resources Development Act. We are holding our first of multiple 
hearings with regard to the United States Army Corps of 
Engineers and the next Water Resources Development Act, and we 
are holding our first hearing of this Congress as a 
subcommittee, and I would like to welcome our new members to 
the committee. You are going to find it very interesting and 
important, the work we do here.
    It is time for this Congress to reengage in the development 
of the Nation's water resources and play a bigger role in 
prioritizing projects and activities carried out by the Army 
Corps of Engineers. Congress cannot continue to abdicate its 
constitutional role and responsibility in determining what 
projects should go forward and should reassert itself in the 
face of an administration that creates a one size fits all 
policy with little or no transparency.
    Over the last few weeks, we have held a number of 
educational forums and roundtables on the Corps of Engineers 
program. One of the themes that has emerged is the concern of 
industry stakeholders and non-Federal project sponsors, 
typically counties or cities, regarding the time it takes the 
agency to actually reach a decision. In what used to take the 
Corps 3 to 5 years to study, it has now become the norm for the 
Corps to take 10, 12, or even 15 years to produce a study. This 
is unacceptable.
    And it is no wonder it is taking so much time since the 
Corps has to review in detail many different alternatives. In 
one case, a Chief's Report was sent to Congress last year. The 
study of the project was authorized in 1999. The original 
purpose of the project was for navigation improvements, but 
when the Chief's Report was delivered to Congress last year, 
the total project cost was $650 million, but only $250 million 
was for the actual construction of the navigation improvements. 
The rest of the project costs, almost $400 million, are 
attributed to environmental enhancements, not just 
environmental mitigation.
    In another case, the Corps of Engineers delivered to 
Congress a Chief's Report for which there is no Federal cost 
share partner. The study took 7 years to develop, but since 
then there is no Federal sponsor. Why should the Congress 
authorize this project? The funding spent on that study could 
have been spent more wisely in projects where there are non-
Federal sponsors and local support.
    Lastly, a Chief's Report came to Congress authorizing a 
project to prevent storm damages, but also included in that 
Chief's Report would be the authority, should Congress choose 
to give it, for the Corps of Engineers to carry out an 
additional $140 million worth of studies in the project area.
    Ultimately, the Federal taxpayer is on the hook for these 
studies and for the length of time it takes to carry them out. 
The Corps reviews far too many alternatives, and then sends to 
Congress a project request that far exceeds in scope and cost 
which was initially intended.
    As one of our witnesses will explain to the subcommittee 
today, just because a study is costly, complex, and long does 
not necessarily mean that it's a better project. In fact, a 
large, costly project with so many add-ons that never gets 
funded is a benefit to no one.
    It is critical to accelerate these studies, but it is also 
extremely important that we better prioritize the Corps of 
Engineers program to focus the agency on those projects and 
activities that protect life, promote safety, and have an 
economic return on investment and have local support.
    As we move forward with the policy-heavy Water Resources 
Development Act, we will be focusing on accelerating the study 
and project delivery process, as well as better prioritizing 
these worthwhile investments that the American public had 
relied on for decades.
    Congressman Bishop is right. It is about jobs. It is about 
job creation. It is about being competitive in the global 
marketplace and moving our country and our economy forward in 
global competitiveness.
    So I want to thank the witnesses for coming, and we are 
interested in hearing your testimony. With no further ado, we 
will get right to that.
    If any other Members have opening statements, you may 
submit them for the record.
    We do have an unanimous consent request. I ask unanimous 
consent that the record of today's hearing be left open until 
such time as witnesses have provided answers to any questions 
that may be submitted in writing or additional comments or 
materials offered by individuals or group may be included in 
the record of today's hearing.
    All in favor? No objection do we see. We are good to go on 
the unanimous consent.
    OK. We will start here with the Honorable Harry Simmons, 
your opening statement, and then we will go through all of the 
opening statements and we will go back and do Q&A at the end of 
the statement. Welcome.

 TESTIMONY OF HON. HARRY SIMMONS, MAYOR, CASWELL BEACH, NORTH 
CAROLINA, AND PRESIDENT, AMERICAN SHORE AND BEACH PRESERVATION 
    ASSOCIATION; WARREN D. WILLIAMS, GENERAL MANAGER/CHIEF 
ENGINEER, RIVERSIDE COUNTY FLOOD CONTROL AND WATER CONSERVATION 
  DISTRICT, AND PRESIDENT, NATIONAL ASSOCIATION OF FLOOD AND 
  STORMWATER MANAGEMENT AGENCIES; PETER STEPHAICH, CHAIRMAN, 
   CAMPBELL TRANSPORTATION COMPANY, AND SECRETARY, WATERWAYS 
  COUNCIL, INC.; ADOLPH N. OJARD, EXECUTIVE DIRECTOR, DULUTH 
 SEAWAY PORT AUTHORITY, AND U.S. DELEGATION CHAIRMAN, AMERICAN 
ASSOCIATION OF PORT AUTHORITIES; CHRISTOPHER J. GOBLER, PH.D., 
    SCHOOL OF MARINE AND ATMOSPHERIC SCIENCES, STONY BROOK 
  UNIVERSITY, AND DIRECTOR OF THE SHINNECOCK BAY RESTORATION 
 PROGRAM; AND AMY W. LARSON, ESQ., PRESIDENT AND CEO, NATIONAL 
                   WATERWAYS CONFERENCE, INC.

    Mr. Simmons. Chairman Gibbs, Ranking Member Bishop, and 
members of the subcommittee, my name is Harry Simmons. I am 
president of the American Shore and Beach Preservation 
Association, which has advocated for a healthy coastline since 
1926.
    Thank you for the opportunity to appear before the 
subcommittee today to discuss the upcoming Water Resources 
Development Act.
    ASBPA is comprised of coastal counties, cities and towns 
throughout the Nation as well as a large contingent of coastal 
engineers, researchers, scientists and regulators. Together we 
advocate for policies that benefit the communities and 
resources of coastal America.
    We are especially interested in policies that provide 
resiliency, sustainability, and efficiency in the commonsense 
management of our coasts.
    America's coastlines are a valuable natural resource. 
Travel and tourism is one of the largest industries in this 
country, with beaches contributing roughly $225 billion 
annually in business and tax revenue to the national economy, 
including bringing more and more overseas visitors and their 
dollars to our country.
    In addition, the travel and tourism industry is the largest 
employer in the United States and its jobs are, fortunately, 
difficult to move offshore. During a time where the 
availability of jobs is a major national concern, we should be 
doing everything we can to protect and maintain this country's 
coastlines.
    America's coasts are also vulnerable to severe storms that 
put people, property, infrastructure and the environment at 
risk. Superstorm Sandy is the latest in a series of natural 
disasters that have highlighted this vulnerability, but what 
Sandy also demonstrated is that the often modest investment 
that the Federal Government and its non-Federal partners have 
made in building strong dune systems and healthy beaches was 
repaid many times over.
    In the areas hit by Sandy, communities protected by high 
dunes and wide beaches survived while those without these 
coastal protections paid a high price. In the years ahead, 
there will be more storms that will threaten lives, safety, and 
property along the coast. A strong dune system sitting behind 
wide, healthy beaches is one of the best tools to reduce risk 
and promote sustainability.
    It has been nearly 6 years since Congress passed a WRDA 
bill, and the programs and policies that impact America's 
coasts are in critical need of updating. The Federal 
Government's fiscal situation requires smarter spending 
decisions based on a system that plans, manages, and funds 
important water resource projects with greater efficiency.
    Nowhere is this need more apparent than along our Nation's 
shorelines. We can no longer manage America's coastlines one 
project at a time. For nearly a decade ASBPA has supported the 
regionalization of Federal water resources activities. It is 
time for a multiagency, collaborative system to plan, 
construct, and manage water resources projects that includes 
Federal, State and local governments.
    We hope that the WRDA bill this committee develops will 
include an authorization to test this approach in one or more 
regions of the coast. The current project-by-project approach 
is wasting taxpayers' money and reducing the effectiveness of 
Federal investments. It is also wasting precious supplies of 
sand in many cases by dredging navigation projects and dumping 
that sand offshore rather than using it to nourish beaches and 
provide natural habitat.
    WRDA 2007 authorized a new regional sediment management 
program long championed by ASBPA. Unfortunately, the language 
of that provision enabled Corps headquarters to implement 
guidance that has almost nullified the effect of the WRDA 
provision. ASBPA would like to work with this committee to 
correct these defects.
    Another important initiative to assure that coastal 
sustainability and resiliency are attained is to create a 
procedure to enable the evaluation and authorization of coastal 
protection projects whose 50-year period for Federal fiscal 
participation is coming to a close. The Corps currently lacks a 
statutorily authorized process to determine whether or not it 
is feasible to reauthorize Federal participation. Without a 
straightforward procedure to evaluate whether there is a 
continued Federal interest in financially supporting an 
expiring coastal storm damage reduction project, there is no 
way local governments can afford to provide the same level of 
protection.
    In closing, Chairman Gibbs, Ranking Member Bishop, and 
members of the subcommittee, thank you for allowing me to 
appear before you today. There are other issues in our written 
comments which you can ask us about if you wish. ASBPA is more 
than happy to offer you and your staffs the assistance of our 
members, including world renowned coastal scientists, 
engineers, and managers, as well as State and local government 
officials and other community leaders.
    Thank you.
    Mr. Gibbs. Thank you, Mayor.
    Mr. Williams, welcome. The floor is yours.
    Mr. Williams. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, my name is Dusty 
Williams. I am president of NAFSMA, the National Association of 
Flood and Storm Water Management Agencies.
    I am pleased to appear before you today to present this 
testimony addressing the proposals for the WRDA Act of 2013. On 
behalf of our membership, we thank you for your leadership and 
efforts to move a WRDA forward this year.
    NAFSMA appreciates the difficulty of drafting this much 
needed bill in the light of serious economic issues facing the 
Nation and the constraints of earmark limitations. We thank you 
for taking on this challenge and offer to work with you to 
address these critical issues.
    NAFSMA is a public agency driven organization with a focus 
on effective flood and storm water management in urban areas. 
For 35 years NAFSMA's mission has been to advocate public 
policy and encourage technologies in watershed management that 
focus on flood protection, stormwater and floodplain 
management. The organization is keenly aware that flood damage 
reduction activities and projects are a wise and necessary 
investment that reduce the loss of life and ensure the safety 
of our citizens, thereby reducing recurring requests for 
Federal disaster assistance.
    And while our formal written testimony discusses more than 
a dozen recommendations for WRDA 2013, I would like to spend 
just a few minutes highlighting a handful of our more 
significant proposals.
    First, enactment of WRDA itself, the reauthorization of 
WRDA is critical. In the wake of the enormous devastation and 
suffering caused by Sandy, moving our Nation's flood risk 
management initiatives forward is more important than ever. 
Local, regional and State agencies depend on WRDA's 
reauthorization.
    Exclude Corps of Engineers water resource projects from the 
definition of earmarks. Federal funds used to reduce the loss 
of life and property damages from floods are an investment in 
improving the resiliency of a community and the Nation. The 
Corps of Engineers process and associated legislative 
requirements for identifying, vetting, and funding potential 
projects is an example of a transparent and public process 
which does not belong in the earmark category.
    Enact a national levee safety program. As a member of the 
National Committee on Levee Safety, I am pleased that the 
NAFSMA membership approved a resolution in support of a 
national levee safety program. NAFSMA's resolution notes that 
the Nation lacks a complete understanding of levee location, 
ownership, and condition, and that Federal funding 
participation is required for the rehabilitation and repair of 
levees, many of which were constructed in partnership with the 
Corps.
    NAFSMA urges Congress to move forward with a voluntary and 
incentive-based national levee safety program that includes 
qualified States and local and regional flood control agencies, 
and that also establishes a national levee rehabilitation 
improvement and flood mitigation fund.
    Develop and implement measures to more closely harmonize 
levee O&M activities with environmental requirements. This 
National Committee on Levee Safety recommendation is 
particularly important to NAFSMA members who are currently 
trying to maintain the integrity and strength of their existing 
levees so they provide the flood reduction capabilities 
expected by the public.
    NAFSMA urges Congress to clarify routine maintenance for 
damage reduction facilities and to improve the regulatory 
process for obtaining the necessary permits.
    Levee vegetation review. NAFSMA strongly supports the 
inclusion of language to direct the Assistant Secretary to 
conduct a comprehensive review of Corps policy guidelines 
regarding vegetation on levees. NAFSMA has raised concerns 
about the one size fits all nature of this policy which we are 
concerned is not supported by conclusive research.
    Non-Federal project implementation pilot program. We are 
also recommending inclusion of a pilot program to evaluate the 
cost effectiveness and efficiency of allowing non-Federal 
interests to carry out flood risk management projects. NAFSMA 
is very supportive of this type of effort for the design and 
construction of projects that do not require a new start.
    Address crediting issue. NAFSMA supports including language 
to address concerns of non-Federal partners relating to credit 
eligibility and its availability to sponsors for advanced 
construction of flood protection works. With the current 
economic strain faced by non-Federal sponsors and their Federal 
counterparts alike, the ability to address critical flood 
damage reduction and public safety needs by promoting earlier 
construction of these essential projects represents a sound 
investment of Federal and local resources.
    In closing NAFSMA very much appreciates this opportunity to 
testify, and our members look forward to working with the 
committee on a WRDA 2013.
    I would be happy to answer any questions you may have, sir.
    Mr. Gibbs. Thank you, Mr. Williams.
    Mr. Stephaich, welcome. The floor is yours.
    Mr. Stephaich. Thank you, Chairman Shuster, Chairman Gibbs, 
Ranking Member Bishop, and members of the subcommittee. Thank 
you for the opportunity to testify before you today.
    As chairman of Campbell Transportation Company, I am also 
on the Executive Committee of Waterways Council, the national 
public policy organization that advocates in support of a 
modern, well-maintained system of inland waterways and ports. 
Our diverse members include waterways carriers, shippers, 
agricultural interests, port authorities, trade unions, 
shipping associations, and waterways advocacy groups from all 
regions of the country.
    It has now been almost 6 years since the most recent Water 
Resource Development Act became law. Important water resource 
policy decisions are pending before this Congress, and none is 
more important in Waterways Council's view than the need to 
redesign the way the U.S. Army Corps of Engineers manages the 
planning and construction of lock and dam modernization 
projects on the inland waterway system.
    More than half of the system that is operated by the Army 
Corps of Engineers is now more than 50 years old. These locks 
and dams require constant attention and financial support both 
in terms of operations and maintenance funding to keep them 
reliably available to users throughout the year, as well as 
modernization funding to improve the systems' efficiency and 
add to the Nation's economic well-being.
    The starting point for consideration of the financing and 
management challenge facing the inland waterways system must be 
recognition that the current business model for modernizing the 
Nation's locks and dams is seriously broken and must be 
reformed. The Panamanians are able to build the new $5.25 
billion locks for the Panama Canal on time and on budget. 
Conversely, as a Nation we in the United States seem to have 
lost the ability we once had to plan and construct individual 
inland waterways capital projects in a timely and cost 
efficient fashion.
    My written statement goes into some detail on this point, 
but I will just highlight one example here, the Olmsted Lock 
and Dam. Initial construction funding was provided by Congress 
in fiscal year 1991 for this Ohio River lock and dam 
replacement project that had been authorized by Congress 3 
years earlier in WRDA 1988 at an estimated cost of $775 
million.
    Today, 22 years after that first appropriation for 
construction and with $1.5 billion already spent, the project 
is nowhere near completion, and its estimated cost has almost 
quadrupled to at least $3.1 billion. Even if the project 
continues to receive every year full and efficient funding, the 
Corps has estimated that Olmsted's construction will not be 
completed until late 2024, more than 33 years after the 
project's first construction appropriation.
    Mr. Chairman, I cannot say it better than last year's 
testimony of my inland waterways colleague, Mark Knoy. Where is 
the outrage? Where is the recognition that this great Nation 
cannot continue to sit idly by while the Olmsted travesty 
essentially stops progress on the rest of the national inland 
waterways modernization program for more than another decade? 
And Olmsted is not the only example.
    There is a solution to this challenge, Mr. Chairman, that 
WCI and more than 200 organizations nationwide believe will set 
the country on a course of prudent modernization of our locks 
and dams. That solution, known as the Capital Development Plan 
for short, was developed by a team comprised of experts from 
within the Corps and senior leaders of the inland waterways 
industry who spent nearly a year and a half assessing this 
challenge.
    During this Congress, the Capital Development Plan has been 
converted into legislation and introduced by Congressmen Ed 
Whitfield and Dan Lipinski. H.R. 1149, known as the WAVE4 Act 
of 2013, now has 14 bipartisan co-sponsors in the House of 
Representatives, four more than indicated in the written 
statement as a result of additions last week.
    We thank the WAVE4 co-sponsors for their leadership and 
urge the members of this committee and the entire U.S. House of 
Representatives to support moving the Capital Development Plan 
forward in the WRDA legislation that you are developing.
    Mr. Chairman, suppose we continue to pretend that our locks 
and dams do not need to be cared for, that it does not matter 
how long it takes to build a new lock and dam project or how 
much it costs, or that our national economy does not really 
need the increased efficiencies that modernized projects will 
generate. Does any of that matter?
    Two recent studies remind us once again that it matters a 
great deal. Six months ago, the American Society of Civil 
Engineers released a new report on our national ports and 
waterways infrastructure. The ASCE ``Failure to Act'' report 
identifies a severe investment gap totaling $16 billion between 
now and 2020.
    Another report on the cost of inland waterways project 
delays was prepared for the National Waterways Foundation by 
HDR/Decision Economics. The HDR report concluded that 
continuation of the current inadequate $170 million per year 
investment for inland waterways modernization projects 
nationwide would result in a societal cost of $34 billion, much 
of which has already been lost.
    We cannot continue to pretend that neglecting this problem 
is an acceptable approach. We need the Capital Development Plan 
now.
    Mr. Chairman, my written statement poses three questions 
that we should all consider as you develop this year's WRDA. In 
the meantime I am pleased to respond to any questions that you 
or the subcommittee may have.
    Thank you.
    Mr. Gibbs. Thank you.
    Mr. Ojard, welcome. The floor is yours.
    Mr. Ojard. Chairman Shuster, Chairman Gibbs and Ranking 
Member, Representative Bishop, and members of the committee, I 
want to thank you for the opportunity to provide testimony to 
the Water Resources and Environment Subcommittee on the 
foundations for a new Water Resources Development Act.
    I am Adolph Ojard, executive director of the Duluth Seaway 
Port Authority. I appear here today as the U.S. delegation 
chair of the American Association of Port Authorities, which 
represents public port authorities throughout the Western 
Hemisphere. My testimony today is on behalf of AAPA's U.S. 
public port members.
    We appreciate the committee's leadership in pursuing WRDA 
as this is legislation critical to the health of the port 
industry. AAPA believes that WRDA should address three key 
areas that would result in real benefits for the Nation.
    First is fixing the harbor maintenance tax to ensure that 
these revenues are fully used each year.
    Second, the need to make the Corps of Engineers study and 
construction process more efficient so we can meet the demands 
for channel modernization in the future.
    And, third, to get projects authorized and constructed to 
maintain the Nation's competitive advantage in transportation 
cost savings, resulting in jobs and economic vitality here at 
home.
    WRDA established the harbor maintenance tax in 1986 to fund 
Federal deep draft channel navigation operation and 
maintenance. Through the early 1990s the revenues were roughly 
equal to expenses, but there has been a growing imbalance 
between revenues and appropriations with just over half 
currently being spent for its intended purposes. More than $1.6 
billion in revenue was collected in fiscal year 2012, and the 
surplus in the Harbor Maintenance Trust Fund has grown to more 
than $7 billion.
    The low appropriations have resulted in an undermaintained 
system with channels that are not being maintained to their 
constructed depths and widths despite adequate taxes being 
collected, resulting in safety risks of groundings and cargo 
spills, as well as economic risk of light-loading ships which 
increase transportation costs and impact the competitiveness of 
U.S. exports in the global marketplace and the cost of imported 
goods to the U.S. consumer and manufacturers.
    Ports and Federal Government must maintain existing 
infrastructure while preparing for the reality of larger ships. 
U.S. public ports and their private sector partners are doing 
their part, investing more than $46 billion over the next 5 
years. However, increasingly we find that our Federal partner 
is not upholding its part of the bargain in funding channel 
maintenance and improvement projects. As a result, this 
negatively impacts jobs, economic growth, and U.S. 
competitiveness.
    The American Society of Civil Engineers did a report 
entitled ``Failure to Act'' and in that report concluded that 
aging infrastructure threatens more than 1 million U.S. jobs.
    AAPA has been actively preparing for the next WRDA bill to 
address the investment and process changes needed to keep the 
U.S. maritime infrastructure world class. Those issues needing 
legislation have been identified by AAPA and our 
recommendations are described in my formal testimony.
    AAPA recently convened a task force to develop a set of 
guiding principles in regard to the harbor maintenance tax and 
water-side port modernization. We urge the committee to 
consider these six principles when drafting legislation.
    First and foremost, AAPA advocates for the full use of HMT 
revenues.
    Number two, funding from HMT revenues first should be used 
for historical intended purposes.
    Thirdly, AAPA is supportive of more equity to donor ports.
    U.S. tax policy should not disadvantage U.S. ports and 
maritime cargo.
    The U.S. must have a process to efficiently study and to 
construct deep draft projects.
    And lastly, the cost sharing formula for maintenance and 
deepening should reflect the current cargo fleet.
    MAP-21 included a sense of Congress in an attempt to 
address principle one above, but as we saw in last week's 
release of the President's budget, the administration did not 
follow the recommendation and did not include full use of HMT 
revenues. WRDA is the next avenue to resolve this problem and 
ensure full use permanently.
    WRDA is also an opportunity to speed up the planning and 
project development process to allow our Nation to move quickly 
to address the needs of the future. AAPA has developed a 
specific list of policy and efficiency measures we believe need 
to be enacted to enhance the Nation's international 
competitiveness and these are included in my written statement.
    We commend the committee's leadership for recognizing the 
nexus between water resource development and economic 
prosperity. Federal investments in port-related infrastructure 
are an essential, effective utilization of limited resources 
and paying dividends through increased trade and international 
competitiveness, sustainable job creation, and understanding 
that more than $200 billion annually in local, State and 
Federal revenues are collected from these projects.
    We urge you to develop and pass a WRDA bill at the earliest 
possible time.
    Thank you.
    Mr. Gibbs. Thank you.
    Dr. Gobler, welcome.
    Mr. Gobler. Thank you.
    Mr. Chairman, members of the subcommittee, my name is 
Christopher Gobler. I am a professor within the School of 
Marine and Atmospheric Sciences at Stony Brook University of 
New York, where I am director of academic programs on the 
Southampton campus and director of the Shinnecock Bay 
Restoration Program.
    I have been actively involved in marine ecosystem research 
for more than two decades. I am here today to provide 
perspective regarding aspects of the Water Resources 
Development Act that deal with ecosystem restoration. These are 
projects that seek to protect and enhance a critical national 
resource, our coastal bays, estuaries and waterways.
    These regions support more than 69 million jobs, generate 
half of the Nation's gross domestic product, protect almost $2 
trillion in annual trade, and provide more than $200 billion 
annually in leisure and hospitality jobs.
    Unfortunately, during the past half century many of the 
Nation's coastal zones have experienced depletion of fisheries 
and losses of key habitats that have, in turn, had severe 
negative consequences for coastal ecosystems and economies. In 
such regions, projects that restore coastal habitats and 
fisheries are needed to help estuaries remain healthy, 
functioning, and to build coastal economies.
    I will first address the issue of shoreline protection and 
flood damage reduction specifically as it relates to Hurricane 
Sandy. The shorelines of New York and New Jersey were 
devastated by Hurricane Sandy, and many communities have been 
changed forever. One important lesson learned from the storm is 
the identification of the types of oceanfront environments that 
were most resilient to storm surge. In their natural state, 
barrier islands that are lined with well vegetated dunes on 
their ocean sides and comprised of intact salt marshes on their 
bay sides provide protection against storm surge. As such, 
these barrier islands provide erosion protection from breaking 
ocean waves as well as protection from bay flooding.
    During Hurricane Sandy, oceanfront communities that 
constructed artificial or hardened structures, such as 
boardwalks, hotels and other buildings, directly on the ocean 
without a natural dune-marsh system experienced catastrophic 
losses.
    In contrast, communities with natural or augmented dune-
marsh systems fared well. For example, communities on Long 
Island South Shore that had the strongest and most intact dune-
marsh barrier islands system, specifically Shinnecock Bay, was 
the only bay not breached by the ocean storm and experienced 
only minor damage compared to other regions in New York and New 
Jersey.
    Closer to New York City, regions with dunes, such as Point 
Lookout and Lido Beach, fared significantly better during Sandy 
than the adjacent Long Beach community which had no dunes and 
was devastated.
    While this was the Sandy experience, I emphasize today that 
75 percent of the U.S. east and gulf coasts are lined with 
barrier islands quite similar to the ones that I just 
described. Therefore, ecosystem restoration projects that seek 
to enhance, reestablish, and rebuild ocean dunes and salt 
marshes may be some of the best preventative and cost effective 
measures to protect U.S. coastal communities, particularly in 
the face of storms and sea level rise that will only intensify 
with climate change this century.
    Next I will emphasize coastal ecosystem restoration 
projects that seek to enhance water quality and fisheries. 
During the past half century many coastal zones have suffered 
the dual assault of overfishing, of key bivalve species, and 
the overloading of nutrients emanating from urban centers and 
agriculture. These processes have led to the initiation of 
harmful algal blooms, the loss of key marine habitats and 
diminished fisheries.
    Recognizing these trends, efforts have been made nationally 
to stem the flow of nutrients into coastal waters. In addition, 
ecosystem restoration projects are restocking bivalves and 
planting habitats, such as sea grasses and salt marshes.
    As Director of the Shinnecock Bay Ecosystem Restoration 
Project, my team is restocking and rebuilding shellfish 
populations. These populations will filter bay waters and, in 
turn, keep algal blooms in check. Concurrent efforts to rebuild 
sea grass communities will benefit shellfish populations as 
well as fish populations by providing key habitat.
    Ultimately, these efforts will be of economic benefit for 
fisheries as they rebound and for tourism as it improves. While 
such ecosystem restoration efforts have not traditionally been 
included within the Water Resources Development Act, I believe 
they warrant consideration in the future.
    In light of all this information, passage of a new Water 
Resources Development Act with specific authorization to 
restore critical coastline dunes and wetland systems would be 
of great benefit to the Nation. While the Hurricane Sandy 
supplemental bill will help address some ecosystem restoration 
projects in New York and New Jersey, the restoration needs 
across the Nation are great. There are presently over a dozen 
environmental restoration projects that have completed Chief 
Engineer reports and are ready to be authorized, funded, and 
constructed.
    Executing these projects will provide protection of our 
coastal communities and environments while providing jobs and 
multifunction opportunities for better management of our water 
resources.
    I thank you for your attention, and I look forward to your 
questions.
    Mr. Gibbs. I thank you, Doctor.
    Ms. Larson, the floor is yours. Welcome.
    Ms. Larson. Thank you.
    Chairman Shuster, Chairman Gibbs, can you hear me, first of 
all? I am a little bit away from the table. OK. And Ranking 
Member Bishop, thank you for the opportunity to be here today 
to discuss the foundations for a new Water Resources 
Development Act.
    My name is Amy Larson, and I am the president of the 
National Waterways Conference. The Conference would like to 
thank this committee for its long tradition of cooperation and 
collaboration in addressing the Nation's critical water 
resources needs.
    As the Congress considers comprehensive water resources 
legislation, the Nation is at a crossroads on the issues of how 
to both authorize and fund critical water resources projects. 
Much attention has been given in the past few years to the use 
of congressionally directed spending or earmarks for all 
Federal spending decisions. Efforts in Congress to eliminate 
wasteful spending are laudable, and especially important given 
today's fiscal challenges and necessary to maintain the public 
trust.
    However, deferring all decisions to the executive branch, 
particularly as they relate to water resources projects, 
represents a fundamental change to the way this country has 
established its priorities. This self-imposed limit on project-
specific directives and funding levels represents fundamental 
abdication of Congress' constitutional role. Such action has 
resulted in the stoppage, interruption and delay of critical 
projects.
    The administration's priorities, as reflected in the 
budget, have seldom been set through an open, deliberative 
process as have those that have withstood the heavy scrutiny of 
the congressional committee system. Permanently adopting in a 
WRDA such a system would result in centralizing all water 
resources decisionmaking, excluding the input of both 
stakeholders and their elected officials from the process of 
establishing Federal priorities. Such a system would undermine 
the very foundation and integrity of the Nation's Civil Works 
program.
    As the Congress grapples with significant fiscal 
challenges, including how to avoid the earmark abuses of the 
past and ensure that such decisions are made with the benefit 
of full sunshine, we would respectfully suggest that this 
committee by means of its open and deliberative process and 
whose members have the benefit of first-hand knowledge of the 
importance of particular projects to their States is the 
appropriate forum in which to make these major investment 
decisions, and we encourage the Congress to reconsider how this 
country invests in the Nation's water resources infrastructure.
    You have just heard from my colleague at the Waterways 
Council about the importance of inland waterways and their role 
as the backbone of the Nation's transportation system, ensuring 
domestic and international trade opportunities and low-cost, 
environmentally sound movement of goods.
    To that end, we generally support the proposed reforms to 
the project delivery process applicable to construction and 
major rehab of the Nation's aging locks and dams based upon the 
Capital Development Plan.
    Integral to the project delivery reforms is the need to 
ensure sufficient funding for these important projects, and as 
efforts continue to enact a long-term funding solution, it is 
important for the inland waterways to function as an integrated 
system. Efforts to prioritize funding and raise revenue must 
not disrupt the proper functioning of the system as a whole.
    Similarly, the Nation's ports and harbors are critical 
components of our transportation infrastructure, and regular 
maintenance is required to ensure their efficient use. We 
strongly support legislation that would ensure that the 
revenues collected into the Harbor Maintenance Trust Fund are 
used for their intended purposes.
    Turning now to levee safety, we support the establishment 
of a comprehensive levee safety program and as a starting point 
for discussion refer to the draft recommendations made to 
Congress by the National Committee on Levee Safety. And a 
critical first step to the establishment of such a program is 
the one-time inventory and inspection of all known levees 
across the United States, including the non-Federal program 
levees. This baseline information should be maintained in the 
expanded national levee database in order to determine the 
critical safety issues, the true cost of good levee 
stewardship, and the state of individual levees so that we can 
inform our priorities and provide data for much needed 
decisionmaking.
    A levee safety program should at its threshold provide for 
clarification of Federal and non-Federal roles, recognizing the 
Corps of Engineers project involvement is driven by national 
economic benefits and State, regional and local authorities 
maintain plenary responsibility for life safety, landside risk 
reduction measures, including evacuation, land use practices, 
building codes, and risk communication.
    A levee safety program must not impose top-down Federal 
mandates, but instead recognize that States and local 
governments and Indian tribes are uniquely positioned to 
oversee, coordinate, and regulate local and regional level 
systems.
    Turning to policy reforms in the few seconds remaining, 
WRDA provides numerous opportunities to reform and update 
various policies, accelerate planning and project delivery and 
enhance the role of non-Federal sponsors. While more attention 
tends to be on waterways and levee issues, this is also an 
opportunity to enhance hydropower productivity and address 
critical reservoir management challenges.
    As described in my written testimony, the planning process 
is extraordinarily rigorous and thorough, but it has become 
overly burdensome, resulting in it becoming impractical.
    And I see that my time is up. I go into much more detail on 
reforms to the planning process in my written testimony, and I 
am happy to answer questions on that.
    Thank you.
    Mr. Gibbs. Thank you.
    I will yield myself time to start the first questions off, 
and to Mr. Ojard, you talked about the Harbor Maintenance Trust 
Fund. In the President's budget that he submitted to Congress 
here just last week, the President has talked about the need to 
increase exports, which I totally agree with, to grow our 
economy. You may not know this, but it has been estimated by 
the administration that we will collect over $1.8 billion in 
the Harbor Maintenance Trust Fund this year, but he is only 
requesting $834 million for operation and maintenance of these 
navigation channels, leaving an estimated balance of almost $9 
billion dollars at the end of fiscal year 2014.
    As we all know, an inch of depth per ship--I have heard the 
numbers, and you might be able to tell us the numbers again--
but, you know, it seems like there is a disconnect of what the 
reality is, what the administration says that we need to do, 
but why are we not appropriating more money of that $1.8 
billion?
    Mr. Ojard. I wish I could get into the President's mind and 
give you a direct answer, but the fact of the matter is the 
maritime industry does support thousands and thousands of jobs, 
and your comment about the inch of depth and in Panamax size 
ships, that is 270 tons of cargo, and that is significant in 
all of our ports and all of our coastal waterways. Draft equals 
efficiency, and the efficiency of our channels and the depth 
and width improves safety. It lowers cost of the 
transportation. It makes our goods more economical as we move 
them to export markets overseas.
    I firmly believe that the investment in infrastructure for 
channels, for harbors has a huge multiple impact on our Nation, 
our Nation's economy, and the backlog that we currently see is 
only growing, and I would hope that your committee can deal 
with that issue in the full use spending as we move forward in 
the development of the WRDA Act.
    Mr. Gibbs. Thank you.
    I want to move on on the flood control, Mr. Williams. 
Everybody has mentioned Hurricane Sandy and the relief aid. You 
know, one of the issues we have had and, you know, we are 
working to do a lot of policy reforms because, you know, I am 
just really outraged at the years it takes to get these 
projects done right. We all are, and the cost there incurred.
    My understanding on the emergency supplemental for 
Hurricane Sandy relief, a lot of things were authorized without 
studies. Can you give us an update how things are progressing 
and, you know, what the impact is by not doing some of the 
studies or what has happened in that area of flood control on 
the east coast?
    Mr. Williams. No, sir, not specifically the east coast. I 
am afraid I would just be guessing. I can talk about it 
nationally, but I think that is typical of what is happening on 
the east coast.
    Levees specifically we have talked about the need for 
funding those upfront. It is really a matter of pay me now or 
pay me later. And this country has been in a reactionary 
environment for a long time, and I think we are finding out 
that it is not just pay me now or pay me later, but it is pay 
me now or pay a lot more later.
    I think investment in the Corps projects through Water 
Resources Development Act is a wise investment. It does save 
money in the end. I think that is true with Sandy. I think it 
is true with Katrina.
    Mr. Gibbs. Mr. Simmons, since you represent your 
association, any observations on what has happened on Hurricane 
Sandy relief without all of the studies?
    Mr. Simmons. Well, clearly, they are moving a lot faster on 
Hurricane Sandy relief than they have been able to move on 
other projects, and the reason I am not entirely clear on, 
because it should seem that one could move just about as 
quickly on any project as they are moving on those.
    Much of the Hurricane Sandy work is rebuilding things that 
have been studied and approved in the past. So those we 
certainly understand how they can move more quickly, but there 
are some areas that are getting help that weren't studied 
before, and I think those of us, like my community, that are 14 
years into a study are wondering how in the world that can 
happen.
    Mr. Gibbs. OK. Just kind of on that tangent, Dr. Gobler, 
what can Congress do on these water resource development 
projects without triggering multiple lawsuits?
    You know, it seems like a lot of the delays are because of 
litigation. You know, it halts job creation. Do you have any 
recommendation of what we could do to maybe stop some of this 
litigation or prevent it from happening?
    Mr. Gobler. I do not have specific insight on litigation, 
but just following up on what was just discussed, I will just 
briefly say that I do know the New York Division of the Army 
Corps carefully looks at the entire ecosystem there and has had 
projects that maybe had not been advanced to Chief Engineer 
reports. They have considered in the event of a storm like this 
what could be done, and so some of what is being done has not 
gone through the full process, but are things that they have 
considered and measures that they are considering in a holistic 
fashion that they believe will be both repairing what has 
already been done, but also preventing future losses on the 
coastlines.
    Mr. Gibbs. So you think that there have been appropriate 
studies done previously to some of this for some of these 
projects?
    Mr. Gobler. Yes. This division of the Army Corps of 
Engineers is specifically located in New York. They know the 
coastline, for example, the South Shore, Long Island, very, 
very well. They have people there who have been working on it 
for decades. They know the particular ecosystems, and they 
specifically had projects that they had already planned out. So 
they had not gone through the whole process, obviously, to get 
a full engineer's report, but because that particular division 
knows that coastline well, they have a good sense of what is 
going to be needed to enhance and protect shorelines.
    Mr. Gibbs. So we have got a little common sense going on 
here maybe.
    Mr. Gobler. Perhaps so, yes. Perhaps a decade is not needed 
to plan all of these things out, you know.
    Mr. Gibbs. That is my point. Thank you.
    And I will yield to Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    I thank the panel for your testimony. It was very helpful.
    I want to just talk for a minute about the Harbor 
Maintenance Trust Fund and its linkage to the Inland Waterways 
Trust Fund and, in fact, its linkage to the larger problem that 
we have of we have or are at least allocating insufficient 
resources to deal with our needs.
    Every one of you has made the case that we need to invest 
more, whether it is shoreline protection, ecosystem 
restoration, habitat restoration, inland waterways, locks and 
dams, harbor maintenance. You have all made the case. You are 
all right. We do.
    But the Harbor Maintenance Trust Fund is an example of the 
problem that we have. It was established in 1986. No President 
has ever requested that Congress spend the full amount of the 
annual proceeds. It is why we have an accumulated balance in 
the trust fund.
    If this President--and, by the way, I am disappointed in 
the President's request with respect to the Harbor Maintenance 
Trust Fund--but if this President were to ask us to spend fully 
the $1.8 billion that is going to come in this year, as opposed 
to the $800 million that he is requesting, that is a billion 
dollars of additional expenditure that would either require 
that we spend a billion dollars less either elsewhere in the 
Army Corps of Engineers budget or somewhere else within our 
$3.7 trillion worth of expenditures or we would have to 
increase what we call, pardon the jargon, the 302(b) allocation 
for the Army Corps.
    Now, the Army Corps budget has just taken a 5-percent cut 
as a result of sequestration. I believe the President's request 
for Army Corps expenditures is a reduction of 4.3 percent; is 
that right?
    So, sure, let's spend the Harbor Maintenance Trust Fund. I 
think every person on this committee would agree we should. 
What will we not spend?
    And so I know there is a proposal from the inland waterways 
users to take Olmsted offline, take Olmsted out of the trust 
fund and put it onto general fund budget. OK. So that is $80 
million, and we will spend a billion more on harbor maintenance 
issues. What is left for shoreline preservation if it all comes 
out of the hide of the Army Corps?
    So we can push around numbers, but all we are doing is 
pushing around a problem unless we make the very hard decision 
to say that, yes, we all agree we need to do these things, but 
it is going to cost us money to do them. Because I am willing 
to bet, Mr. Simmons, you are not going to say, ``You know what? 
Fine. Spend it all on dredging harbors. We will let the beaches 
take care of themselves.'' Right? Probably not?
    Mr. Simmons. If you put a lot of that sand on beaches we 
might be able to talk about it.
    [Laughter.]
    Mr. Bishop. There you go.
    But you see the point I am making, and so one of the things 
that we are going to have to grapple with as we do WRDA is what 
is the appropriate level of investment that we as a Congress 
believe is required to protect our beaches, to see to it that 
our inland highway system functions at the highest possible 
level, to see to it that our ports are Panamax ready, and so 
on. That is the challenge.
    So with that, and I apologize for being so wordy, but, Mr. 
Simmons, you made the point in your testimony that shoreline 
protection is about resiliency and it is about sustainability.
    And, Professor Gobler, you made a similar point. Can you 
expand on how shoreline protection has the dual purpose of both 
stabilization of the shoreline, but also deals with the issues 
of sustainability?
    Mr. Gobler. Sure. Specifically speaking of Long Island, I 
mean, you know, if you have a properly built dune system that 
has, as I mentioned in my introduction, both a dune in the 
front but actually, importantly not also included, a salt marsh 
in the back, that is its natural state. The dune protects from 
the breaking ocean waves. The salt marsh in the back protects 
from flooding, and all across the South Shore of Long Island 
there were dozens and dozens of communities that now are 
looking at abandoning their homes because of flooding, and in 
some cases if there were both the oceanfront protection but 
also those salt marshes in the back, there is a chance that 
those communities would not be considering abandoning their 
homes.
    And going forward, this is going to be more and more 
important. We know that sea level is rising. It has been 
rising. It is going to continue to rise. We know the rate at 
which that is happening. So it is more important than ever as 
we move forward that we have, like I said, both the dunes and 
the marshes because that is what is going to make these sorts 
of situations sustainable going forward.
    Mr. Bishop. Thank you.
    I am almost out of time. So I will wait for the second 
round. Thank you, Mr. Chairman.
    Mr. Gibbs. Chairman Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Thank all of you for being here today. I appreciate it.
    And, Ms. Larson, my first question is to you. I have been 
asking you a lot of questions lately, and you have given more 
answers. So I appreciate you being here today.
    In your testimony you warned Congress not to put the 
3<greek-e>3<greek-e>3 study program into law. While some 
limitations should be placed on studies, in particular, on 
duration and cost, can you give the committee your reasons why 
there are studies that exceed $3 million in 3 years?
    Ms. Larson. Thank you for the question, Chairman Shuster.
    The Corps planning process is very thorough and very 
extensive, and the six steps are laid out in my testimony. And 
it has grown to be overly burdensome, and so now it is really 
impracticable.
    And to the Corps credit, it has implemented its 
3<greek-e>3<greek-e>3 plan, but a lot of the requirements in 
the planning process are legislative mandates. So simply 
imposing a timeframe without addressing all of those 
legislative mandates will not result in a successful 3-year 
program.
    So I think if a 3<greek-e>3<greek-e>3 mandate will be part 
of WRDA, it needs to be coupled with a fundamental review and 
overhaul of the entire planning process. That includes a lot of 
the streamlining provisions that are in the Senate bill, 
sections 2032 and 2033, as well as some other requirements and 
enhancements.
    But simply requiring the Corps to look at the same number 
of alternatives, adhere to the same other requirements and 
processes, and saying, ``But now do it in 3 years with no more 
money,'' will not result in a successful program. So it needs 
to be part of the entire overhaul of the system.
    Mr. Shuster. Well, as part of that overhaul, you know, 
getting the Congress back to regular order and the challenges 
we face with the moratorium we have put in place, in the past 
in something like this if the Corps came to the Congress, as 
they should under our constitutional authority, and asked us to 
do a survey resolution, that would be a way to overcome that, 
but do you agree with that?
    Ms. Larson. I do. I do, and I think that is just one 
component of the process.
    Mr. Shuster. Right. But I also believe that we need to put 
some kind of time constraints on these studies because there 
are projects. The Upper Mississippi Valley took 15 years at $75 
million to do, and there was not one ounce of concrete poured 
for that project.
    So I am leaning toward the 3<greek-e>3<greek-e>3 program, 
but again, Congress needs to make sure it maintains its 
authority to be able to adjust a project when the Corps comes 
back and says it is going to take longer or we need a little 
more money.
    Ms. Larson. As we have seen, when projects are fully funded 
or they have a steady funding stream, they tend to be completed 
more expeditiously and more efficiently. So mindful of the 
fiscal constraints that are facing the Nation and particularly 
applicable to the entire Civil Works program and water 
resources infrastructure, we need to find a way to prioritize 
that so that those priority studies are completed.
    You know, last year the President implemented his ``We 
Can't Wait'' initiative and touted the Port of Savannah, one of 
our members. But this year's budget includes no funding for 
Savannah and no increase of the 902 level. So I am not entirely 
sure what we cannot wait for.
    But those are the kinds of priorities that the Congress 
needs to be back engaged in.
    Mr. Shuster. Thank you, Ms. Larson.
    Ms. Larson. Thank you.
    Mr. Shuster. Mr. Stephaich, thank you for being here today. 
I appreciate your work on the Mon River Valley, which runs 
through my district, and thanks for helping to educate me on 
the whole waterway system.
    The President has proposed in his fiscal year 2014 budget 
language to charge vessels a fee for using the waterway system. 
I know that you folks support raising the diesel fuel user fee 
from 20 cents a gallon to 26 cents a gallon. Can you tell us 
what is the difference and why you oppose the vessel fee versus 
why you support raising that user fee from 20 to 26 cents?
    Mr. Stephaich. Sure, Mr. Chairman. The President's budget 
contains the vessel fee which, frankly, we are not really very 
clear on in terms of how that would work.
    We believe increasing our user fee, which is a diesel fee 
on the number of gallons that we burn throughout the system, is 
a much more equitable way of allocating the burden of this 
extra cost to the full waterways and the users of the 
waterways. We view the Nation's inland waterways to operate as 
a system and not just as a regional matter.
    Obviously in the upper ends of the river, like in the 
Pittsburgh area, we have a lot more locks and dams due to the 
geography, and so that is one reason why we would propose to 
see a diesel fuel increase happen.
    Mr. Shuster. And is it more transparent using a pay at the 
pump than it is using a fee?
    It sounds like you are not sure.
    Mr. Stephaich. Once again, we do not know what the 
administration's fee proposal really is. If it is a lockage 
fee, then obviously we are disadvantaged in the Pittsburgh 
area.
    Mr. Shuster. Right.
    Mr. Stephaich. There is currently a mechanism in place to 
collect the current 20 cents a gallon, which, you know, all of 
the users have been using for a number of years.
    Mr. Shuster. And if the chairman will indulge me for just 
20 more seconds, is it difficult to pass on that 20 cents? 
Because you are shipping a lot of commodities, is that 
difficult to pass that on to the end user and instead it stays 
back home with the shipper?
    Mr. Stephaich. Well, it depends on the commercial contracts 
with our customers, but most of us, I believe, have clauses 
that will permit us to pass through that type of a fee to our 
customers, which would be the big utilities, the steel 
companies and so forth. So the issue is: will we be competitive 
as a mode of transportation? You know, at what point do we 
start losing cargo and losing volume to alternative modes? 
Because sometimes we will lose a contract over a few pennies a 
ton.
    Mr. Shuster. Thank you very much.
    Mr. Gibbs. Thank you.
    Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you to our 
witnesses.
    I just have a couple of questions. I do feel like, you 
know, when the conversation shifts to what we did with 
Hurricane Sandy and Hurricane Katrina, you know, we have to be 
really careful about that because in all instances, I think, 
with Hurricane Katrina we waived match requirements and other 
things in order to expedite the movement on those projects and, 
similarly with Hurricane Sandy, there were some waivers for the 
new activity even though the match was still required for the 
local projects. But still that money was, you know, front-
loaded, and that is not the case for the overwhelming majority 
of the projects that the Corps has in place and that are needed 
in our water systems.
    And I think the President is sort of damned if he does and 
damned if he does not. I mean, you know, if he proposes, as Mr. 
Bishop has said, you know, the full amount in the Harbor 
Maintenance Trust, then that money has to come from someplace, 
and then he will be beaten up in the Congress for having 
proposed what might even be considered, you know, extraordinary 
spending.
    So while we all, I think, agree that this work needs to 
take place, I mean, there are deep divisions about how it needs 
to be funded. I, on the other hand, think that the more we fund 
these kind of heavy infrastructure projects, then the more jobs 
we create, the more taxes people pay, and it just sort of 
creates an environment for real economic gain and 
competitiveness.
    So I do, indeed, look at these projects as investments. 
Nonetheless, we are here in a bind facing, you know, a 5-
percent cut in a sequester, a lower budget, but still with the 
expectation that we get a lot of work done.
    I am a little bit curious about a couple of things in 
looking at costs. Dr. Gobler, you testified and highlighted the 
fact in your testimony that there are areas where there was 
significant natural barriers that actually provided the kind of 
protection to the coastline that were not found in areas that 
were overdeveloped and overprotected. And I wonder if you have 
some ideas about how the Corps spends its resources on projects 
that could involve natural protection versus the concrete and 
cement that we are so familiar with, and whether there needs to 
be a shift in balance as we are thinking about how we deal with 
these rising sea levels.
    Mr. Gobler. Yes, that was one of the overwhelming lessons 
learned, is that the regions that had an oceanfront with a 
natural dune and not a hardened structure were the ones that 
did the best, and I think that at least in New York, the 
regional office of the Corps of Engineers recognizes that, and 
as they seek to rebuild from Sandy, wherever possible they are 
seeking to lead with that approach.
    And I think that has been the lesson learned through the 
decades, that hardened structures on the shorefront that are 
put in even if they help the region directly in front of, say, 
the ocean where they are protecting, someone downstream will be 
negatively impacted by something like that.
    Ms. Edwards. And they are lower cost; is that not correct, 
to do sort of natural protection versus the hardened shoreline?
    Mr. Gobler. That is right, and just as a quick parallel, if 
you go over to Holland, for example, they build up tremendous 
dunes. There is a country where most of the land is actually 
underwater. So they know all about dealing with sea level rise, 
and one of the best ways they deal with that is to just build 
tremendous dunes.
    You know, people do not get necessarily to see that 
oceanfront view that they want, but they have the protection, 
and I think that is a lesson that we should take to heart and, 
I think, needs to be seriously considered going forward.
    Ms. Edwards. Thank you.
    And, Ms. Larson, in your testimony you pointed out the fact 
that we no longer have the ability as Members of Congress to do 
earmarks or congressionally directed projects and that it has 
been a more complicated process because of that. So I wonder if 
you have some ideas about ways in which we might restore the 
ability of Congress to have an impact on making some decisions 
about projects, but at the same time protect against the kind 
of abuses, even though I do not think that they were 
substantial abuses when you consider the number of projects, 
but still protect against the abuses to protect taxpayers.
    Ms. Larson. Thank you for the question.
    I think it is important to note as we start out that the 
focus on earmarks up to now has been on funding for already 
authorized projects, but what WRDA contemplates is applying 
that requirement permanently in law to all project decisions, 
including whether to start a feasibility study, and I think 
those decisions are best made at the local level.
    Those projects start, you know, whether it is the town 
council or the local governing board, to address a particular 
problem, and it is critical that the local stakeholders 
maintain that voice.
    So mindful of not wanting to go back to old abuses to the 
extent that they were, I think this committee had done a very 
good job of requiring transparency and openness. So that 
process, I think, can be tweaked to make it more open with more 
sunshine, even though I think it was pretty good anyway.
    But I also think that there can be an opportunity for 
States, local communities, local governing boards--maybe they 
are levee boards or water supply districts--to have the 
opportunity to come to Congress and make their interests and 
needs known as well because they are being lost here in this 
transition. If they have to go only through OMB, I fear and as 
I have heard from many of our members, their voices are not 
being heard. So they need to have that openness as well.
    Mr. Gibbs. Thank you.
    Mr. Hanna. He just stepped out? OK. Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman.
    I appreciate the entire panel being here. This has been 
really helpful for me.
    I do have some concerns. I am relatively new to this job. I 
have been here 2 years. One of the things that concerns me is 
the amount of time it takes for the Federal Government to get 
almost anything done. I know it is kind of in vogue to bash the 
Government for the work they do, but there are some things that 
they do really well and other things not so well, but one of 
the things I am concerned about is how long it takes to do 
infrastructure projects.
    We addressed some of that in MAP-21 last year in the 
highway bill. I was wondering, Mr. Stephaich, if I could ask 
you a question. Why is it that Panama will likely take less 
than a decade from conception to completion on the canal 
expansion project while in some instances it takes the United 
States nearly twice as long just to complete a study to 
determine the feasibility of carrying out a project?
    Mr. Stephaich. That is an excellent question. I am not 
familiar with all the details on the Panamanian side, but 
obviously it is a major project for a relatively small country 
and has the full focus and support of that nation.
    On the domestic side, we have seen the delays due to a 
number of reasons, anything from experimental technology, the 
types of construction methodologies that have been used in the 
Olmsted case to insufficient and funding flows that have been 
turned on and off, to managing contracts where there are 
multiple contracts in a very small area, to lawsuits. It is a 
very broad range of reasons, but I wish I had a good answer for 
you.
    Mr. Ribble. Well, if you could make one recommendation to 
speed things up, what would it be?
    Mr. Stephaich. Probably the single biggest element, I 
think, of our delays is the single year funding, that we have 
to go back and get appropriations year to year.
    Mr. Ribble. So to have multiple----
    Mr. Stephaich. If we could have a multiple year, these are 
10-, 15-, 20-year projects. I always use the analogy. It is 
like building your house if you were to go out and raise the 
money and have a contract, you know, one for the kitchen, one 
for the roof, one for the walls, one for the garage. You would 
never get your house built.
    So for the Corps to be able to have efficient funding over 
multiple years would be probably the single biggest 
improvement.
    Mr. Ribble. Thank you very much.
    Mayor Simmons, I was wondering if maybe I could ask you a 
question. There is a lot of discussion regarding hurricane 
impact on coastal towns and villages, whether it was Katrina, 
Sandy, and the dozens of hurricanes and maybe hundreds of 
hurricanes that we have had over the course of our history, and 
my question is kind of directed more toward the issue of moral 
hazard.
    There have been many citizens that might say, ``Is it not 
an unfair transfer of wealth from poor agrarian communities in 
the central part of the United States to just basically prop up 
rich people living on beaches someplace in Caswell Beach, North 
Carolina?''
    And I am wondering how you would address the issue of moral 
hazard and where people live and whether or not it is the 
appropriate role of the Federal Government to do repairs after 
storms along beach ways.
    Mr. Simmons. Have you got an hour or two? We can really go 
here.
    Mr. Ribble. Try to do that in a minute, 38, but I am sure 
the chairman will give you a few seconds extra.
    Mr. Simmons. First of all, I want to point out that the 
properties in my little 3-mile-long beach town in North 
Carolina are owned by folks from 28 different States. So it is 
not just a bunch of wealthy North Carolinians who live at the 
beach.
    Most of the structures there, especially the oceanfront 
ones, are rental properties that are used by the folks who come 
to visit with us from Michigan and Ohio and Pennsylvania and 
Virginia and also North Carolina.
    Therefore, those structures provide jobs. They provide an 
economic impact on not only our county, our State and our 
region, but also to the Nation in terms of tax revenues that 
are generated by the rentals that go on in those facilities.
    And I will tell you this without any hesitation: that the 
amount of money that is sent towards Washington from a coastal 
community like mine is a whole lot more than comes to my 
community from Washington or any other Government center.
    Mr. Ribble. Thank you very much.
    And with that I yield back.
    Mr. Crawford [presiding]. The gentleman yields back.
    The chair recognizes Ms. Frankel for 5 minutes.
    Ms. Frankel. Well, thank you.
    I guess I am going to defend the beaches. I am from south 
Florida, the beautiful coastline from Fort Lauderdale past Palm 
Beach, and I really want to talk about the ports and the 
beaches.
    Let me start with the beaches and just say that in my neck 
of the woods the beaches fund our schools and our firemen, our 
policemen. The tourism, lots of jobs, and so we have a lot of 
people who live inland and west, not on the coast, but they get 
jobs from protecting our beaches.
    Mayor Simmons, you mentioned a concept of a regional 
approach to taking care of the coastline. I am specifically 
interested in that, especially with the beaches, and I wanted 
to understand what your concept is.
    Mr. Simmons. Well, the whole idea of regional sediment 
management. You take, let's just say sand out of a navigation 
project that is of beach quality, and you put it on the beach 
instead of dumping it offshore somewhere because it happens to, 
at that moment, be the least-cost way to do it. If the town 
that needs the sand then has to go back out to the ocean and 
get that sand and bring it back to the beach, that is an 
additional cost that is not considered in most cases when you 
are talking about a navigation project.
    The Corps of Engineers, or actually WRDA 2007, created a 
mechanism for doing this sort of thing, but the Corps rules 
have made it somewhat difficult to really use, first of all, 
because they must be tied to a Federal navigation project. You 
cannot bring in additional sand that may be nearby to enhance 
what happens when you are able to put that navigation sand on a 
beach.
    The total dollar limits are so low as to almost be useless, 
and the real big problem is that the system is hamstrung by the 
requirement that the Corps use the least-cost method, and not 
counting that loss of the value of the sand itself in that 
cost.
    So I think there is room for this committee to make some 
changes to the WRDA action that was taken in 2007 to fix that 
if you are willing to do so, and we are certainly more than 
happy to help get into the weeds on it if you would like to do 
that.
    Ms. Frankel. So you have language to suggest for us to do 
that?
    Mr. Simmons. I do not know if I have it today, but I can 
find it for you pretty quickly.
    Ms. Frankel. OK. This is for Dr. Gobler, and thank you, 
everybody, for your testimony today. I have a question for you 
and maybe Mayor Simmons may want to, you know, have a comment 
on this.
    But what we are finding with our trying to do beach 
restoration is there are so many--and I want to say this 
diplomatically because I consider myself an environmentalist--
but there are so many environmental hoops and so many different 
agencies, and basically it has come down to people versus 
turtles in southeast Florida. I tried only to be facetious 
about that, but I want to ask you.
    Do you feel there is enough known or is there enough 
research being done so that we can restore our beaches and keep 
them sustainable and also, you know, take care of the 
ecosystem?
    Mr. Gobler. Well, as a scientist, I would say we could 
always do more research, but you know, I think certainly 
conservation of aquatic life needs to move forward in parallel 
with the conservation of aquatic ecosystems like beaches and 
dunes. To be honest, I am not thoroughly familiar with the 
plight of the turtles in south Florida, but certainly I think 
we can all see the value in certain cases of preserving habitat 
whenever possible while also preserving our beaches. But I 
cannot imagine that there may be onerous regulation in order to 
do that.
    Mr. Simmons. Well, one of the biggest positive habitats for 
a turtle is the beach, and if the beach is not there, if the 
beach is not wide, if the beach is not sandy, where is Mama 
Turtle going to lay that nest? She is going to lay it somewhere 
where the waves are going to wash it away the next morning, the 
next high tide, or she is going to end up in a parking lot or 
down along the road somewhere.
    I have actually seen a turtle put a nest in a gravel 
parking lot. They are pretty resilient creatures, but to 
suggest anything other than that a beach is a good habitat for 
a turtle, and it ought to be restored, if for no other reason 
than to take care of the turtles, but to also take care of the 
endangered seabeach amaranth. I mean there are all kinds of 
reasons other than the fact that, you know, these beaches 
generate billions of dollars for the American economy and a lot 
of jobs.
    I could go on and on.
    Mr. Crawford. The gentlelady's time has expired.
    The gentleman from Kentucky is recognized for 5 minutes.
    Mr. Massie. Mayor Simmons, I appreciate Caswell Beach. You 
left Kentucky off the list of people who like to visit there.
    Mr. Simmons. They definitely come, yes, sir. We have seen a 
lot of you.
    Mr. Massie. I have been to your beach. It is a wonderful 
area, and to Mr. Ribble's point, I think maybe he is just 
perhaps suggesting that maybe we could leave more of your money 
at Caswell Beach instead of bringing it to Washington, DC.
    But to talk about something that clearly has a Federal 
nexus here, the inland waterways, there are 280 miles of the 
Ohio River in my district and three locks and dams, and not to 
be parochial about this because that waterway serves at least a 
dozen other States and serves as an economic engine, but we are 
the ones who see the waterways and see the locks and dams and 
are acutely aware of the economic impact when, for instance, 
the primary locks fail and the boats have to lock through a 
smaller lock, for instance.
    Mr. Stephaich and Ms. Larson, could you speak to the 
economic impact or consequences if we do not update the 1950s 
locks and dams that we have on all of our rivers? What are some 
specific consequences that could occur if we fail to address 
the needs of those locks and dams?
    Mr. Stephaich.
    Mr. Stephaich. Thank you, Mr. Massie.
    When we talk about our nightmare scenarios, it involves a 
catastrophic failure at one of these facilities as being 
probably the worst scenario, and depending on the nature of 
that catastrophic failure, it could take anywhere from months 
to potentially years to fix.
    Unlike the roads, we have no alternative. We have no 
detours available to us so that what you are really doing is 
severing the artery and really bifurcating, cutting the system 
in two, which would obviously eliminate, you know, companies 
like ours that are in the barge business. It would not allow us 
to operate, but more importantly, all of the shippers and 
everyone that receives cargo up and down the system would be at 
a loss and would have to find alternative modes of 
transportation which would be at a very high cost, if 
available.
    Mr. Massie. So what are some of the specific industries 
other than obviously the shipping industry; what are some of 
the specific industries that would be impacted?
    Mr. Stephaich. Well, once again, it would depend on where 
that failure would occur, but everything from 60 percent of our 
grain exports going out on the Mississippi River system; 
petrochemicals; coal; everything from fuel oils, road salt, 
mulch for your yard. There is a whole series of scrap steel, 
iron ore. There are a lot of commodities that move on the 
river, and depending, once again, where that failure would 
occur, it would affect those commodities that would transverse 
that particular area.
    Mr. Massie. Ms. Larson.
    Ms. Larson. To compound that and the harm caused by such a 
catastrophic failure, there would be a significant ripple 
effect on this. Inland waterways cargo moves generally at a 
cost two to three times lower than other modes of 
transportation. So your transportation costs go up.
    What happens to the crew on the barge that is no longer 
working anymore? What happens to the regional economies? This 
really would have a significant ripple effect.
    There is data on what happened when the Lower Mississippi 
shut down for oil spills, and we can get you that information, 
but it is not limited just to the commodity, the value of that 
commodity, but it does ripple into the community as well.
    Mr. Massie. So certainly, for instance, the power plants 
would be affected if they could not get the coal, and that 
would have a ripple effect on the economy.
    Mayor Simmons, I wanted to address you again, and thank you 
very much for coming here today, and thank you for serving in 
local government. I really appreciate your commonsense idea. I 
think we need more common sense here in Washington, DC. It must 
be frustrating for you to see them dredge and dump sand in the 
ocean and then have to get a project going to pick up that sand 
again and bring it to your beaches.
    Would you speak a little bit more about your idea?
    Mr. Simmons. Well, I mean, there is a mechanism in place 
already to do this. It was in WRDA 2007. The regional sediment 
management plan allows for sand from navigation projects to go 
onto beaches. Talk about common sense, but then there is an 
issue of the ports and the channel folks being concerned that 
doing all of that might increase their cost or it might delay 
their projects that they also are very interested in seeing 
happen.
    Some of the challenge is going to be coordination. How do 
we make the environmental stuff work in the context of trying 
to do both things at the same time?
    In my neck of the woods, we are doing it right now. The 
village of Bald Head Island has got sand going on it from the 
Wilmington Harbor Channel as a part of a regional sand 
management plan that has been in place for over a decade. It is 
up for a revision in the near future and I hope we will be able 
to keep it working like it should.
    Mr. Massie. Thank you very much.
    My time has expired.
    Mr. Crawford. The gentleman's time has expired.
    The chair recognizes Mrs. Napolitano for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    A couple of things that have not been mentioned is that the 
budget for the Army Corps has been cut repeatedly. So for them 
to be able to do more with less is not necessarily the ideal 
situation.
    Then the other area that you have kind of touched upon is 
that WRDA usually is a 6-year bill; am I correct? And we have 
been doing it year to year. You cannot really bank on the 
funding to be able to carry out those projects.
    So those are things that I have a great concern about. In 
my general area, in the Los Angeles area, out of the two ports, 
Long Beach and Los Angeles, they are designated as corridor of 
national significance. So it moves 40 to 50 percent of the 
Nation's goods through there for on-time delivery to the 
eastern seaboard and to the rest of the United States. Yet to 
put it more bluntly, Mr. Ojard, what would happen if your 
harbor received less than .1, not 1 percent, .1 percent of the 
funds the shippers in the harbor, your harbors, paid into the 
Harbor Maintenance Trust Fund?
    Mr. Ojard. Well, for my harbor, it would be catastrophic. 
We are not blessed with a natural harbor that requires little, 
if any, dredging. So for those that are, we certainly 
appreciate and would welcome the opportunity to share in their 
good benefit, but within the AAPA we certainly recognize that 
we need to spend the monies from the Harbor Maintenance Trust 
Fund for their intended purpose and their historic purposes.
    Mrs. Napolitano. But equitably.
    Mr. Ojard. Well, I realize that this is national program 
designed in 1986, and it was a program that the maritime 
industry supported wholeheartedly because it would take care of 
long-term infrastructure needs. And because we were not able to 
spend the money that we received, in other words, we thought we 
had a user fee and we thought we had a commitment here, and in 
reality the monies were not spent for their intended purpose.
    Now, once those monies are spent, and certainly we 
recognize that donor ports have needs as well, as an 
organization we support those donor ports having some access to 
funds to deal with some of their in-water issues, such as 
contaminated soils, channels adjacent to their berths, et 
cetera. So there is a recognition nationally of the need to 
talk about some of those equities with the donor ports.
    Mrs. Napolitano. Well, I would hope so because it is very 
hard to hear some of they are not my constituents, but I am 
next door to them, talk about the need for them to be able to 
have the reliance of the amount to be able to get some of the 
dredging and other things that it was meant to do.
    But when you have millions of dollars being paid in and you 
get maybe half a million dollars back, that is quite 
inequitable.
    Then the ability to address the backlog, how do we do that? 
Can somebody tell me how do we begin to look at the backlog and 
say the priorities? Small harbors, big harbors, what would be 
the major way of looking at it to be able to help get this 
done, not only protect our commerce, but also for protection of 
the environment, et cetera?
    Mr. Ojard. Well, with regards to the backlog, the 
Congressional Research Service asked the Corps of Engineers to 
look at that, and they came back with a number of approximately 
just under $10 billion over 5 years. We are collecting $1.6 to 
$1.8 billion currently, and certainly we could address that 
backlog in 6, 7 years' time.
    The question then is the priorities, and there has been 
some talk about a congressional priority and basing that on a 
core issue of tons, in other words, high-use ports, lower use 
ports based on tonnage.
    Tonnage does not give us value of a port, and I would have 
everyone really think about this because a ton is not a ton.
    Mrs. Napolitano. I understand, but my time is running out. 
Why do you not submit that for us for the record so that we all 
have that information in writing so when they look at the 
proposition of a bill we are able to take that into 
consideration?
    Mr. Ojard. We would be glad to get back with you. I think 
it is an important item in terms of priority and the value of 
that regional asset because once that regional and local asset 
is lost because of inadequate dredging, it is lost forever.
    Mrs. Napolitano. Thank you very much. Thank you, all the 
witnesses.
    Thank you, Mr. Chair.
    Mr. Crawford. The Member's time has expired. The chair 
recognizes himself for 5 minutes.
    First I want to thank Chairman Gibbs for calling the 
hearing and also to Chairman Shuster for making reauthorization 
of WRDA a top priority of this committee, and I certainly want 
to thank each of you, members of the panel.
    My question is for Ms. Larson. In your testimony, you 
pointed to the McClellan-Kerr Arkansas River Navigation System 
as an example of the Federal Government partnering with private 
interests to address the system's $100 million backlog of 
critical maintenance. A large portion of that system falls in 
my district. It is critical to both commercial and recreational 
interests throughout Oklahoma and Arkansas.
    My question is: what type of barriers do you see that 
prevent more of these types of agreements between the Federal 
Government and private entities to address these critical 
infrastructure needs?
    Ms. Larson. Thank you for the question.
    That river segment really works very well with their Corps 
of Engineers district offices, Little Rock and Tulsa. So the 
first part of that agreement is to coordinate and prioritize 
projects.
    The second element that is in there is to allow the 
contribution of emergency funds, and they are working to ensure 
that they can do that under current law.
    So when we are looking at such partnership agreements 
across the spectrum of the Corps of Engineers, we need to make 
sure that there are the legal permissions to allow the non-
Federal sponsors to make those contributions in there, and it 
is not in that case. And that happens across the spectrum 
whether it is a feasibility study or O&M funding or, as we saw 
in the levels of service cutbacks, where local communities 
wanted to pay for some lock master hours so that they could, 
say, run a recreational boat tournament, they did not have the 
ability to give the Corps those funds.
    So we need to provide that flexibility and allow local 
sponsors more involvement in that.
    Mr. Crawford. Thank you.
    You know, being in the Lower Mississippi Basin, certainly 
the MRT is very important to our district and to the region in 
general. Thank you for highlighting the 44 to 1 return on 
taxpayer investment in the MR&T.
    The historic flooding along the Mississippi in 2011, along 
with Hurricane Sandy, provide two clear pictures of the 
critical role that levees play in our Nation's infrastructure. 
Can you go into some more detail on the state of the Nation's 
levees and what you might expect a national inventory and 
inspection would find?
    Ms. Larson. It really varies according to region, and it 
really varies according to Federal involvement in those 
regions. There are many, many small communities throughout the 
country who have responsibility for the maintenance of their 
levees, and they simply do not have the resources to do it. So 
those are the levees and the regions that we want to make sure 
we target in this kind of inventory because we are talking 
about public safety here.
    When we are comparing that, for example to the MR&T process 
which has statutory authority and permissions and well 
established local levee boards who have taxing authority, they 
maintain their levies. They are very well maintained. That is 
not the case throughout the country. So we need to make sure 
that all of those small levee systems are looked at.
    We also need to make sure that there is flexibility in that 
system. The levees in the MR&T differ from the levees in 
Arkansas as you know, differ from the levees around the city of 
Dallas and perhaps what is on the Upper Miss. So we need to 
have that flexibility.
    I think we will see wide disparity when we do that 
evaluation, but it is critically important that we get it done.
    Mr. Crawford. Thank you.
    I will yield the balance of my time. The chair recognizes 
Mr. Nolan for 5 minutes.
    Mr. Nolan. Mr. Chairman, members of the committee, I, too, 
want to commend the chairman for making the reenactment here of 
WRDA a high priority for this committee and engaging the 
committee in putting forth the legislation that needs to go 
before the House of Representatives.
    I want to thank the panel for their testimony here today 
expressing the needs, the benefits, the importance of 
investing, the opportunities that flow from that. And, of 
course, I would be remiss if I did not particularly commend Mr. 
Ojard from our great Port of Duluth.
    He is being modest when he says Duluth is not a natural 
port, which of course it is not, but what a lot of people do 
not realize is that being located right there almost dead 
center in North America, people do not typically think of it as 
a great port facility.
    But, indeed, it is. There have been times in modern history 
when Duluth was the largest seaport in the world as measured by 
the number of metric tons that go through that port, and to 
this day there are millions of metric tons of ore and taconite 
and timber products, grains and cereals from the Midwest, and 
western coal that utilize that port facility, and we thank you 
for the wonderful job that you have done in keeping that port 
the important port that it is for the economic opportunities in 
that region.
    And as someone who has spent 32 years in both the 
sawmilling and the pallet business and the export trading 
business, I appreciate your highlighting the fact that a 
quarter of our GNP comes from exporting. So this is no small 
matter here in taking care of the needs and benefits and 
understanding the investments in our waterways.
    And we have heard a lot of good testimony here about full 
funding and streamlining the process and the regulatory process 
and the need for flexibility in all of this, and it is timely. 
It is much appreciated, and it is attention to these kinds of 
investments in infrastructure that are so critical, so 
important for our economic future.
    I am going to apologize here now for talking about 
something just a little bit different, but important to WRDA, 
and that is not to take anything away from the focus of the 
panel because you are right on. You are spot on on your 
priorities, and we could not be more grateful to you.
    But I wanted to talk just briefly if I could a little bit 
about some of the delays and, you know, backlogs, particularly 
as they relate to hydro projects, and since everybody else has 
been asking Ms. Larson questions, I feel compelled to ask you 
one, too.
    So we have more than 80,000 dams that already exist here in 
this country, and only about 3 percent of them actually produce 
any electricity, and that has been brought to the attention of 
the Congress recently. And a large percentage of these 
unpowered dams are owned by the Army Corps of Engineers. In 
fact, 81 out of the top 100 unpowered dams, in fact, are owned 
by the Army Corps.
    It is estimated that simply by powering the facilities the 
Corps owns could create another 7,000 million watts of clean 
hydropower in this country, and that is enough to really 
energize millions of homes and perhaps even take care of all 
the military needs in the country in terms of the volume.
    But time and again, you know, we hear about the delays and 
the inefficiencies in the Army Corps that get in the way of 
moving these and other projects forward. There are permitting 
processes that take years and redundancies among many of the 
agencies. I have heard about hydro projects, one in Mahoning, 
Pennsylvania, for instance, that have approval from FERC only 
to have to wait months while the Army Corps also issues a 408 
permit, which itself must go through three levels of Army Corps 
review.
    Ms. Larson, are the complaints I am hearing about and the 
delays and the redundancies, I mean, are they an actual 
reflection of what is really going on here?
    And is the problem limited only to hydropower? And how can 
we fix it? You know, given the general view that FERC should be 
the lead agency, why not create a system in which FERC and the 
Army Corps work concurrently on their permitting? And the Corps 
even defers to FERC expertise in some instances.
    A lot of questions.
    Ms. Larson. My hydropower people will be very happy for 
this question.
    There are a couple of different things going on. When there 
are authorized projects, a Federal authorized project, if 
hydropower is one of those authorized projects, even if it is 
not operational, it is typically reserved for Federal 
construction.
    If there are projects without a Federal hydropower 
authorization, it is open to non-Federal hydropower 
development. And, for instance, there are three hydropower 
facilities in Arkansas that are non-Federal projects.
    When a non-Federal hydropower developer seeks to get 
approval to operate at this Federal site, they need this 408 
permit. Part of that process is to look at the other authorized 
purposes and ensure that they will not be otherwise undermined 
or interfered with.
    So I think at the district level, the extent of that review 
depends on the region and what those other projects are, and it 
may be very complex, and so I imagine for non-Federal 
hydropower startups, that might be a little daunting depending 
on the kind of project. And it varies, again, by region of the 
country.
    And so the delay or the time consumption is at the district 
level. I know for the Pennsylvania project you mentioned by the 
time it got to the head of Civil Works the final approval was 
within 3 weeks.
    But mindful of those kinds of burdens maybe on these small 
hydro developers, in March 2011, the Corps entered into a MOU 
with FERC, and it defers in large part to FERC analysis of NEPA 
and those sorts of things, but it is a process. You need FERC 
approval. You need Corps approval for 408, and you still need a 
404 permit.
    But I think the Corps MOU with FERC has gone a long way to 
streamline, reduce redundancies, and help particularly those 
smaller hydropower startups so that they can get a permit and 
get to business.
    Mr. Nolan. Thank you.
    Mr. Crawford. Thank you. The gentleman's time has expired.
    The gentleman from Oklahoma is recognized for 5 minutes.
    Mr. Mullin. Thank you for the opportunity to address the 
panel, and thank you for the time that you have spent with us, 
too.
    Ms. Larson, I hope your ankle is getting better. It was 
your ankle, right?
    Ms. Larson. A slow process.
    Mr. Mullin. A slow process. Well, I appreciate you taking 
the time to come to the Hill.
    This is one thing that seems that there is definitely 
bipartisanship in. We all understand the need of our 
infrastructure and to do it reasonably and responsibly, but at 
the same time, without the infrastructure the United States has 
and without us investing in infrastructure, this great country 
is going to crumble around us because of our lack of interest 
or lack of ability to repair.
    And it seems like the Government is our own worst enemy. It 
seems like we are fighting each other, and we all want to do 
the same thing, except we just seem to be walking around in 
circles.
    It is so frustrating as a business owner for me to see this 
happen, but one problem that we are having in our district, 
which I represent Oklahoma District 2, which is a very rural 
area, all eastern Oklahoma, and believe it or not, we have 
three ports right there in our facility, and it is vitally 
important to us. But in the current system we have three locks 
that are closed 4 hours a day because the Corps deemed them to 
have a lack of lockages because they say there is fewer than 
1,000 a year that are recorded going through them.
    The problem is that was from 2010, and that was during a 
time of economic downturn. Now all of them are well over 1,000, 
and the Corps does not have any recent study to allow these 
things to be open. So we are experiencing major delays.
    Ms. Larson, you stated that it should not be the policy of 
the United States to discourage economic activity, but that is 
exactly what we are having. So my question is: are you aware of 
any other areas experiencing this type of delay in economic 
activity due to the Corps deeming them lack of lockages?
    Ms. Larson. We have worked extensively with the Corps on 
its level of service initiative, and around the country there 
is significant frustration, particularly in Pennsylvania, West 
Virginia areas on the Upper Allegheny River where there are 
very few or almost no commercial lockages, but the recreational 
boating is critically important to their regional economic 
development and well-being, and similarly in Alabama.
    So we are working with the Corps, mindful of budget 
constraints and perhaps the need to cut service hours, but to 
do it in a streamlined way so that the river is not closed for 
4 hours in Tulsa and then 4 hours in Arkansas, but that it is 
somehow a streamlined system that is working well together.
    Unfortunately, I imagine, as we go forward in this fiscal 
environment, we may see more of those. The Corps says it is 
trying to do more with less. At some point that will just not 
be possible, and it is important, I think, for Congress to 
decide what are its priorities.
    We are very concerned that these kinds of cutbacks hurt the 
tributary systems, and certainly the McClellan-Kerr system is 
not a low-use waterway. It is a moderate use and higher use, a 
huge amount of chemicals moving out of those ports up there, 
and agricultural products.
    So we continue to work with the Corps on that, but it does 
come down to bottom line dollars.
    Mr. Mullin. Ma'am, thank you, and I will yield back the 
rest of my time. Thank you
    Mr. Gibbs [presiding]. Mr. Maloney.
    Mr. Maloney. Yes, thank you. And I want to thank Chairman 
Gibbs and I want to thank Ranking Member Bishop for the 
opportunity to testify today, and I want to thank the panel for 
your testimony.
    I would like to use my time today to emphasize one of the 
very important aspects of WRDA reauthorization, which is, 
again, building off the remarks by my colleague, Mr. Nolan, on 
the importance that dams play in our communities. Folks may not 
realize that we have 84,000 dams in this country. The average 
age of a dam is 52 years old I am told.
    In my district, there are 100 high-hazard dams. These are 
dams that if a failure occurred would result in loss of life or 
significant property damage.
    There is a program called the National Dam Safety Program 
that provides a little bit of Federal money to make sure that 
in a classic ``stitch in time saves nine'' way we are 
performing inspections at an adequate rate, that local 
authorities and associations have the information they need, 
the technical expertise they need to pay for repairs that they 
need to do and to pay for those repairs themselves, but the 
Federal Government has historically played an important 
partnership role in this activity.
    That is why I recently introduced the Dam Safety Act that 
would reauthorize this program, and I just want to emphasize it 
here today because one of the reasons I wanted to serve on the 
Transportation and Infrastructure Committee and on this 
subcommittee is that we have got to proud tradition of working 
in a bipartisan way.
    I am happy to say that I have an original co-sponsor from 
the other party, from the majority party, Mr. Gibson, who also 
represents parts of the Hudson Valley with hundreds of high-
hazard dams just like mine, and we together want to take this 
important step because this is not a partisan issue. This is 
not a Democratic or Republican issue. This is not a Senate or 
House issue. The Senate has been doing good work on this as 
well, and while I do not believe, Mr. Chairman, that we should 
cede our role in this important piece of legislation to the 
other house in any way, shape or form, I am encouraged to see 
that it is moving in that side of the Congress as well.
    And people may not realize, but this is also not just an 
urban issue or a rural issue. It is both. So that while most of 
my dams are smaller and affect smaller communities, the fact is 
even the city of New York depends on the dams that support the 
watershed and the reservoir system for the city.
    So this should not divide us in any way. It should not 
divide us across party lines or in either house of Congress or 
whether we represent an rural or an urban or a suburban 
district. This is an opportunity to do a basic thing that can 
and will save lives that we have always done.
    And so I want to encourage my colleagues to consider 
carefully the Dam Safety Act that I have introduced, and I want 
to thank my co-sponsor on the other side, Mr. Gibson, and I 
hope that it will receive a real chance in this process as we 
move forward because it is the kind of thing that will do real 
good for the people of the Hudson Valley and for communities 
all over America.
    And with that I will yield back the balance of my time. 
Thank you.
    Mr. Gibbs. Ms. Frankel?
    Ms. Frankel. Thank you.
    Mr. Ojard, I think you said you had some recommendations on 
how to make the Army Corps more efficient. Do you want to be 
specific?
    Mr. Ojard. Yes. Certainly the provision of peer review in 
our estimation has not really provided any value to the entire 
process. A review of over 30 studies has indicated that during 
that peer review process, 6-plus months was added onto the 
project, sometimes a year or more, and not one major change was 
made in the project itself.
    So that adds money, and it adds time to the process and we 
would recommend that that we stricken as a requirement for the 
Corps.
    Certainly when we do our channel maintenance and sometimes 
widening, just the sheer fact that we widen a channel, extend 
into areas already authorized, but because of lack of 
maintenance funding it has not been done for a number of years, 
and as we extend back out into that, we are required to do 
environmental studies that, again, add time to the project.
    And lastly, there is a number of projects. Now, we have 13 
proposals that are part of the written testimony, but a number 
of those proposals deal with the non-Federal partners, and the 
ability of non-Federal partners to work with the Corps of 
Engineers in terms of providing monies, studies, and 
recognition for the work that they are putting into it, but all 
of that designed to move the project along quicker and more 
efficiently, using monies that are non-Federal, and then 
looking at the opportunities in the out-years to recover those 
funds if possible for the local sponsors.
    So those are just three very general ideas, but all of this 
is about process and about streamlining and getting the Corps 
to its task, which is performing the job, the construction and 
the maintenance.
    Ms. Frankel. Thank you.
    In an informal meeting last week, a representative from the 
Corps made a statement. I will try to paraphrase it, that the 
Army Corps has the most difficult task in getting a project 
implemented because of, he says, requirements that are put on 
the Army Corps by Congress.
    Would you comment on that?
    Mr. Ojard. Only to say he is absolutely dead on. There is 
just a never ending number of hoops to be jumped through. The 
process is lengthy. The review is extensive. Everybody is 
engaged in the activity, and there is opportunity at every turn 
if you do not like a project to stop it, to extend it, to defer 
it, to just try to muck it up.
    And we in the industry that are trying to do the best we 
can find that we are being impeded at many turns and sympathize 
with the Corps because they are trying to do their job and do 
it well.
    Ms. Frankel. Will your recommendations take that into 
account?
    Mr. Ojard. Well, yes, some of the recommendations do do 
that as well, yes.
    Ms. Frankel. And could you just quickly comment? We are 
talking about tonnage is not equivalent to the quality of a 
port.
    Mr. Ojard. Well, in that regard, first off, when we talk 
about the Harbor Maintenance Trust Fund and the tax, you have 
to recognize that it is on imports. Therefore, if you are a 
donor port, you could be a donor port because you have high 
imports and very little maintenance, where in reality I think 
we are talking about jobs and we are talking about exports.
    Certainly a ton of T-shirts going to a big box store does 
not have the value, does not support the jobs that a ton of 
iron ore, raw materials moving domestically within this country 
supports, hundreds of miners in Minnesota, sailors moving 
through the Great Lakes, steel mills in the lower States, the 
manufacturing, the infrastructure, the automotive, appliance, 
as well as the structural steel for our highways, et cetera.
    So all of this has to be taken into account and then plus 
on that, the local and regional economy. And once we get rid of 
small ports, once you start this process of trying to 
eliminate, it is a death spiral, and in the Great Lakes trades. 
We trade with each other. We are constantly trading. We are the 
largest port, but we interface with almost every port on the 
Great Lakes.
    And as those ports start to lose dredge funding, which they 
are, ultimately they will be shut down. Our port will suffer. 
There will be a modal shift. We have done modal shift studies. 
The impact of that is significant not only in terms of cost, 
but in jobs and the environment.
    So we really believe that it is imperative that we have 
full spending, full use of those harbor maintenance tax funds. 
Those funds, if offset, will provide a long-term fix to our 
national needs and our national interests and should spur the 
economy and provide jobs for our Nation.
    Ms. Frankel. Thank you.
    Mr. Chairman, may I ask one last quick question since I 
think I am the last one here?
    I would like to ask you, Mr. Ojard, could you comment on 
Mayor Simmons' concept of having a regional approach to some of 
these projects and whether or not if, for example, in doing 
some dredging that would help a port, using that sand to 
renourish a beach, whether that would impede the port's 
operation or the speed of that particular project?
    Mr. Ojard. Well, first off, every project is unique, and I 
think we have to take that into account, and again, the Corps 
of Engineers is trusted to do the most efficient job, but in 
today's world if it is not a two-fer or a three-fer, multiple 
projects, one project supporting another project supporting 
other projects, we are losing the opportunity.
    In our port, we are looking to use dredge materials for 
habitat restoration. The Corps of Engineers is not necessarily 
paying for that, but it is coming from some other environmental 
pot to pay for that, and I think that is where we have to go.
    Ports will partner with anybody to maintain their 
commercial needs, and the dredge materials that we have, if 
they are suitable for a beach, if they are suitable for habitat 
creation, they should be used there. The Corps will do what 
they can in terms of the pricing for the lowest cost. That 
additional cost can certainly be met through such as the Great 
Lakes Legacy Act that we have and were involved in.
    And right now, we have got environmental groups arguing 
over who is going to get that dredge material that we plan to 
deliver here in the next year or two on a special project.
    So I think there is opportunity to work collectively, work 
together, satisfy multiple needs, and save this Government 
money.
    Thank you.
    Ms. Frankel. I thank the gentleman.
    Thank you, Mr. Chairman, for your courtesy.
    Mr. Gibbs. Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Just a couple of quick points. I think I am the last 
question that Congresswoman Frankel asked at least in my 
district. Every inlet that is dredged, the spoil goes onto a 
beach, and you are absolutely right. We need two-fers. We need 
three-fers, and I think the Corps is very attuned to that.
    I want to thank you, Mayor Simmons, for your defense of 
using taxpayer funds to stabilize our beaches. As a person who 
represents a district that has over 300 miles of coastline, I 
recognize and I want to emphasize the point that Professor 
Gobler made, that communities within 50 miles of the coast 
produce half of our gross domestic product. That is $8 
trillion, communities within 50 miles of the coast, and I know 
in my district the single greatest industry, if you will, in my 
district is travel and tourism, and the second is the second 
home industry, everything associated with the second home 
industry.
    We employ an enormous number of people because of the 
people that live along those beaches, and the people that live 
on the bay side of those beaches are not the wealthy 
landowners, and yet as Professor Gobler pointed out, if we have 
breaches in those beaches, it is the people on the mainland 
that are going to bear the brunt of that in many cases.
    And I would also point out that at least in New York we 
have what we call erosion control districts. I do not know 
whether they are used throughout the country, but where coastal 
taxpayers get together and tax themselves and engage in beach 
nourishment projects, and they are working quite well.
    Lastly, I just want to thank you, Ms. Larson, for raising 
the 800-pound gorilla that is in the middle of the room in your 
testimony, and that is how do we deal with the earmark 
moratorium, and I think your suggestion is a very good one. 
There are a couple of other ways that I would hope my 
colleagues would consider.
    One is that if a project is a trust fund funded project, 
that is to say Harbor Maintenance Trust Fund, Inland Waterways 
Trust Fund, Highway Trust Fund, that that would be a project 
that would be exempt from the earmark ban, and again, all would 
be vetted through this community.
    And then another possible way is if the project is Federal 
money flowing to another governmental entity, whether it be a 
State or a town or a county or some authority of some type. 
That also, but the fact that, you know, we have engaged in this 
in an effort to avoid wasteful expenditures of Federal money 
and yet as a result of being engaged in this we are wasting 
Federal money by virtue of not being able to follow up on 
projects that we have already authorized and funded, I mean, I 
think that is the ultimate irony.
    So I thank you, and if you would care to comment, I would 
appreciate your comment.
    Ms. Larson. Well, thank you, and I will continue to raise 
that 800-pound gorilla because I think this committee needs to 
resolve it.
    The other component of that that I think we really need to 
be mindful of when we are talking about policy reforms, we saw 
in the Senate version of the bill efforts to address perhaps 
particular problems, whether it was a biological opinion or 
something else. Because of the earmark moratorium instead of 
addressing a discrete problem, it grants sweeping authority, 
stating ``the Secretary shall do whatever is necessary.''
    And that could be beyond congressional intent or even the 
underlying statute, but I think we need to be mindful of that. 
Those sweeping grants of authority then would undermine the 
streamlining efficiencies that we are trying to put in.
    Mr. Bishop. Keep raising the issue.
    Ms. Larson. Thank you.
    Mr. Bishop. Thank you very, very much.
    I yield back, Mr. Chairman.
    Mr. Gibbs. All right. Thank you.
    I am going to kind of wrap up here, but I first want to 
apologize for Chairman Shuster and I had to step out to meet 
with General Bostick. So I think it was worthwhile that we had 
to step out.
    Mr. Ojard, I know you are from Duluth, but you also 
represent the Council of the American Port Authorities. You 
know, we look at China. I think I saw a report that they are 
actually dropping down maybe just under 7 percent growth, GDP 
growth, which I wish we were there. We have got a long ways to 
go, but we have seen that expanding market.
    We have also seen Chinese investing in South America, in 
the infrastructure down there. Can you give us kind of a 
handle? The reason I ask this, I guess, is the potential 
because we have got Members like myself that do not have a port 
or are not in the inland waterway system, but the importance of 
the trade and what is happening with China.
    What kind of products do we see that we are exporting to 
China or vice versa? Can you just kind of fill us in on the 
potential we have with China, with that kind of growth, 
especially with their population? Their middle class is bigger 
than our entire population.
    Mr. Ojard. Well, certainly the access to China is going to 
be through our ports, and what we can offer in the world 
economy is going to be based on price, price and quality, and 
if we can price it because of our transportation infrastructure 
at a competitive price, we are going to sell American products 
to China and be it durable goods or some of the luxury items 
that that developing middle class is in desire of.
    China is also after, of course, a lot of raw materials, and 
just for the committee's education, iron ore from Duluth, 
Minnesota, 2,340 miles from the Atlantic ocean, is moving to 
China. It is supporting hundreds of jobs in Minnesota as well.
    So, again, that would not move to China if it was not for 
our waterway system and our harbor. The St. Lawrence Seaway 
System is providing the avenue to export into these global 
markets.
    Coal is moving from our port to northern Europe. It is that 
trade that is key to our future and to our future development, 
and I do not know how you access that trade without funding the 
ports, maintaining their efficiencies, and creating the 
necessary environment to move forward with construction, with 
the maintenance, and do it in an efficient manner.
    So I applaud the committee on the work to drive that 
efficiency.
    Mr. Gibbs. But you are confident in saying that. I have 
been saying this. One of the reasons that we have been globally 
competitive over decades is because we have been blessed with a 
maritime transportation system that is second to none in the 
world, and we have had the example that Chairman Shuster has 
talked about, the soybeans exports, you know, competing with 
Brazil, how we are beating them by $50 or $60 a ton because of 
our transportation cost.
    I guess what I'm trying to say is we are falling behind, 
and we could actually lose that advantage. And if we do that, 
the effect on our economic growth and job creation in this 
country would be very apparent, I think.
    Mr. Ojard. Absolutely correct, and it is not only the 
waterway, but it is our connectors. It is how we connect to the 
rail. It is how we connect to the highway system, and 
developing that robust port. It has multimodal aspects to it. 
All of this drive our efficiency.
    So our transportation system is a system of efficiency that 
has certainly served us well, but I think if we went back and 
looked at the reports from the civil engineers, we are finding 
that it is definitely lacking for repair, for maintenance, and 
funding, and that is the spiral that I have talked about, and I 
think it is going to come home to roost if we do not recognize 
it.
    Mr. Gibbs. I know, Mr. Stephaich, the chairman alluded to 
it a little bit, but I want to just really cement it. You know, 
we talk about the cost and delays. The river system has not 
been shut down completely, but we have definitely had delays, 
and that adds to costs, and those costs obviously get passed on 
to our shippers and consumers, right?
    Mr. Stephaich. Absolutely. We look at scheduled outages and 
unscheduled outages. We have seen the number of unscheduled 
outages increase rapidly here over the last few years. There 
are good Corps statistics on that.
    We can plan around a scheduled maintenance outage with our 
customers and pre-ship or ship afterwards, but when we are 
caught off guard, so to speak, it is a real problem and the 
costs are driven up.
    Mr. Gibbs. Ms. Larson, just one quickly here. I think there 
was some discussion on the headwaters of the tributaries. I 
know the Corps has been looking at trying to save costs on some 
of the locks, on the hours of operation. I think that is a 
concern of yours, to make sure that we can at least facilitate, 
schedule appropriately so that we do not shut down the barges 
coming in from the tributaries into the main system.
    Ms. Larson. That is correct. We need to make sure that the 
cuts in service are coordinated, and not, as on the Oklahoma-
Arkansas River waterway system, 4 hours in Oklahoma and a 
different 4 hours in Arkansas that were not aligned. It is like 
traffic lights in the District that are not aligned. It is not 
productive, and it slows down transportation even more.
    So those two particular districts, the Little Rock and the 
Tulsa district, are working to make sure that they have a 
better coordinated system.
    Mr. Gibbs. Well, I want to thank you all for coming and 
continuing to work on this. You know, we understand the 
importance of this, and I know Chairman Shuster and I have 
committed to try to bring something to fruition here that will 
be beneficial to the American people and our economy and job 
creation.
    So this concludes our first hearing on WRDA.
    [Whereupon, at 12:21 p.m., the subcommittee was adjourned.]

</pre></body></html>
